<html>
<title> - ONLINE CHILD PORNOGRAPHY</title>
<body><pre>[Senate Hearing 109-1154]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 109-1154
 
                        ONLINE CHILD PORNOGRAPHY

=======================================================================



                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,

                      SCIENCE, AND TRANSPORTATION 

                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 19, 2006

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                  U.S. GOVERNMENT PRINTING OFFICE
71-810                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
             Kenneth R. Nahigian, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 19, 2006...............................     1
Statement of Senator Burns.......................................     2
Statement of Senator Ensign......................................    40
Statement of Senator McCain......................................     1
Statement of Senator Pryor.......................................    37

                               Witnesses

Allen, Ernie, President/CEO, The National Center for Missing & 
  Exploited Children (NCMEC); accompanied by John Shehan, Program 
  Manager, CyberTipline, NCMEC...................................    19
    Prepared statement...........................................    21
Brown, Michael J., Sheriff, Bedford County, Virginia.............    13
    Prepared statement...........................................    16
Cooper, Sharon W., M.D., Adjunct Professor of Pediatrics, Chapel 
  Hill School of Medicine, University of North Carolina..........    28
    Prepared statement...........................................    31
Fisher, Alice S., Assistant Attorney General, Criminal Division, 
  Department of Justice; accompanied by James E. Finch, Assistant 
  Director, Cyber Division, Federal Bureau of Investigation......     4
    Prepared statement...........................................     5

                                Appendix

Response to written questions submitted by Hon. John McCain to:
    Ernie Allen..................................................    50
    Michael J. Brown.............................................    49
    Sharon W. Cooper, M.D........................................    53
    Alice S. Fisher..............................................    45


                        ONLINE CHILD PORNOGRAPHY

                              ----------                              


                      TUESDAY, SEPTEMBER 19, 2006

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:36 p.m. in room 
SR-252, Russell Senate Office Building, Hon. John McCain 
presiding.

            OPENING STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    Senator McCain. Well, good afternoon. Senator Stevens 
wanted to be here, but because of the consideration of the 
defense appropriations bills, he is not able to be here. He 
hopes to be able to stop in at some time if possible.
    This afternoon's hearing brings to the Committee's 
attention what some have called an epidemic of child 
pornography on the Internet. I say ``child pornography,'' but 
that label does not describe accurately what we are talking 
about today. As emphasized by a recent Justice Department 
report, ``child pornography'' does not come even close to 
describing these images.
    What we are really talking about is recorded images of 
child sexual abuse. These images are quite literally digital 
evidence of violent sexual crimes perpetrated against the most 
vulnerable among us. Experts are also finding that the images 
of child sexual exploitation produced and distributed today, 
often online, involve younger and younger children. As Ernie 
Allen emphasizes in his prepared testimony on behalf of the 
National Center for Missing & Exploited Children, known as 
NCMEC, 83 percent of offenders surveyed in a recent study were 
caught with images of children younger than 12 years old. 
Thirty-nine percent had images of children younger than 6 years 
old. Almost 20 percent had images of children younger than 3 
years old.
    These are not normal criminals and I cannot fathom the 
extent of the physical and emotional harm they cause their 
victims.
    The violence of the images continues to increase as well. 
As Dr. Cooper states in her prepared testimony, the images she 
has reviewed in her professional capacity often depict 
sadistic, gross sexual assault and sodomy. Sheriff Brown's 
Internet Crimes Against Children Task Force also has direct 
experience with these increasingly violent and disturbing 
images of child sexual exploitation.
    The graphic description of these images by some of the 
witnesses in their prepared testimony is difficult to stomach 
and almost impossible to grasp as the actions of human beings, 
and I do advise everyone in this room that the matters 
discussed today are not appropriate for children. However, as 
policymakers it is our duty to face these matters head-on so 
that we can understand the extent of this evil and determine 
how best to fight it.
    It is also our duty to bring these issues to light so that 
parents around the country know exactly what dangers their 
children face. It is also important to stress that, though the 
focal point of this hearing is online child pornography, the 
actual exploitation occurs in the off-line world. Children can 
be sexually abused by people who have access to them at school 
and, unfortunately, even in the children's own homes. I hope 
our witnesses will talk about how parents and communities can 
protect children from sexual exploitation in addition to 
discussing what law enforcement is doing to combat this crime.
    I note with some disappointment that we do not have 
Internet companies represented today, although they were 
invited to participate. I want to emphasize, Internet companies 
were invited to participate and chose not to. They are 
certainly a crucial component of our effort to eradicate child 
pornography and I trust that the Committee, under the 
leadership of Chairman Stevens, will pursue further hearings to 
assess the private sector's contribution.
    I want to thank the Chairman, Senator Stevens, for the 
courtesy of the gavel this afternoon. I turn now to Senator 
Burns if he has any opening statement.

                STATEMENT OF HON. CONRAD BURNS, 
                   U.S. SENATOR FROM MONTANA

    Senator Burns. Mr. Chairman, thank you very much and thank 
you for chairing this hearing. I do not know of anybody that I 
would rather have chairing this one especially.
    I want to thank our panel for showing up today. I recognize 
it is our responsibility in the Senate to give the prosecutors 
and the police the tools that they need, which is why earlier 
this year I joined Senator John Kyl in introducing the Internet 
Safety Act, which was included as a part of the Adam Walsh 
Child Protection and Safety Act signed into law in July. Among 
other things, this new law increases penalties for child 
pornography, sex trafficking, and sexual abuse offenses, 
cracking down on these horrific crimes. In addition, it will 
increase the financial resources needed to prosecute the 
offenders and prevent this unspeakable and disgusting form of 
child abuse.
    Earlier this year the Commerce Committee passed the most 
comprehensive telecommunications bill in a decade. This 
legislation addresses many issues and fixes many problems 
consumers have faced, ranging from how do we communicate with 
one another to how we will view television in the future. One 
area of this bill I would like to comment on is the language I 
personally added to protect our most precious resource, and 
that is our children.
    Far too often, pornographic websites use web addresses 
which are very similar to other, non-pornographic websites. 
When a child, for example, makes a mistake and types in a 
``.com'' instead of a ``.gov'' or ``.org'', sexually explicit 
photos will appear on the screen. This language requires all 
pornographic website operators to have a home page that is free 
of explicit pictures or words. These folks will no longer be 
allowed to have a pornographic image or material of any kind on 
their home page. This goes a long way in preventing our 
children from accidentally stumbling across obscene pictures 
without restricting adult access.
    This bill also outlaws the embedding of any words, symbols, 
or images into the source code of websites with the intent to 
deceive another person into viewing material that is obscene. 
These simple steps will help prevent children from unwittingly 
stumbling across these harmful images and materials online.
    As we offer legislation to move our Nation forward into new 
territories of dealing with communications, we must protect our 
kids from the dangers that may come their way. Little we do 
will be more important. So I applaud the Chairman for holding 
this hearing today.
    There are just some common sense changes in the law that 
are merely the first steps in a much larger battle against 
child pornography. Today we are here to talk about that very 
subject. We have done much to protect them, but much more can 
and still needs to be done in order to stop these disgusting 
crimes and put the perpetrators where they belong. Take them 
out of society, put them in jail. I have said it before and I 
will say it again: They are our resource, these children. They 
are our future. Each and every one of us need and we must do 
everything in our power to protect them.
    Mr. Chairman, thank you for having this hearing today and I 
look forward to the testimony.
    Senator McCain. Appearing before the Committee today are 
four individuals who are on the front lines of our Nation's 
effort to stop the sexual exploitation of children: Ms. Alice 
Fisher, Assistant Attorney General, the Criminal Division of 
the U.S. Department of Justice. Ms. Fisher asked that Jim Finch 
also appear before the Committee. Mr. Finch is Assistant 
Director of the FBI's Cyber Division and he is prepared to 
answer any questions that members may have regarding child 
pornography investigations. Welcome, Mr. Finch.
    Mr. Finch. Thank you, sir.
    Senator McCain. Sheriff Mike Brown of the Bedford County, 
Virginia, Sheriff's Office and Director of the Blue Ridge 
Thunder Internet Crimes Against Children Task Force; Mr. Ernie 
Allen, who is the President and CEO of the National Center for 
Missing & Exploited Children; and Dr. Sharon Cooper, who is the 
CEO of Developmental & Forensic Pediatrics. Dr. Cooper had a 
scheduling conflict that kept her from attending in person. She 
is joining us via video conference from the campus of the 
Pennsylvania State University at Harrisburg. We thank her for 
her efforts to provide the Committee with her insight. Dr. 
Cooper, we will ask you to testify last and we will try and ask 
you questions first so that you can get off-line if you need 
to.
    Is Dr. Cooper with us?
    [No response.]
    Senator McCain. Well, we hope to get Dr. Cooper with us 
between now and when it is her turn to testify--oh, Dr. Cooper, 
are you with us?
    Dr. Cooper. Yes, I am, sir. Thank you.
    Senator McCain. Can you bear with us while we have the 
other witnesses give their opening statements and then we will 
hear from you, if that is agreeable?
    Dr. Cooper. That is fine, sir. Thank you very much.
    Senator McCain. Thank you for joining us today.
    We will begin with the Assistant Attorney General, Ms. 
Alice Fisher. Welcome, Ms. Fisher.

       STATEMENT OF ALICE S. FISHER, ASSISTANT ATTORNEY 
GENERAL, CRIMINAL DIVISION, DEPARTMENT OF JUSTICE; ACCOMPANIED 
BY JAMES E. FINCH, ASSISTANT DIRECTOR, CYBER DIVISION, FEDERAL 
                    BUREAU OF INVESTIGATION

    Ms. Fisher. Thank you, Mr. Chairman. Good afternoon, 
Senator Burns. Thank you so much for inviting me to testify 
about this problem, a very serious problem facing our country 
today. I am very honored to testify in front of this Committee 
and with leading lights in this effort such as Ernie Allen, 
Sheriff Brown, and Dr. Cooper, who are committed and dedicated 
to this issue every day.
    Thank you so much, the Congress, for the Adam Walsh Act and 
helping with the amendments that you mentioned this morning, 
Senator Burns. Every added tool that we get at the Department 
of Justice is so important to combatting this problem. This 
hearing in and of itself raises public awareness over this 
issue and it is so important.
    As you noted, the danger to our children is so immense. 
Whereas before pedophiles and child pornographers were pushed 
underground, meeting in the back rooms of bookstores, sending 
their products through the mail, now they roam freely on the 
Internet, thousands of them every day, offending and 
graphically depicting children, and it is just terrible. It is 
horrific. The images, as you have noted, are getting to be of 
children that are of younger and younger age, and they are 
images that are more and more graphic. They use technology such 
as commercial websites, peer-to-peer chats, f-serves, webcams, 
et cetera, throughout the Internet, sending and producing and 
obtaining and distributing these pictures.
    While I think most Americans understand the heinousness of 
this crime, these images which I have seen are shocking. They 
turn the stomach and they boggle the mind. There are images of 
infants and toddlers that are on streaming videos and these 
toddlers are being molested. People traffick in these things. 
They trade them, they sell them. It is an epidemic that we are 
facing in this country.
    Let me focus you on four things that the Department is 
trying to focus on in how we approach this effort. We are doing 
a series of initiatives such as Project Safe Childhood that the 
Attorney General announced earlier this year and that you 
codified in the Adam Walsh Act. That is a collaborative effort 
with state, local, and Federal law enforcement and prosecutors 
getting together on a district by district basis to eradicate 
this problem. They are looking at community outreach and 
education and increasing prosecutions. They are also training 
each other on the forensic capability to better equip us to go 
after this problem.
    We are striving to ensure that our technology is up-to-date 
with those who are trafficking in child pornography on the 
Internet. We are launching nationwide initiatives, such as 
taking down a commercial website with child pornography and 
taking those leads and sending them out to the 93 U.S. 
attorney's offices and to State and local prosecutors across 
the country, so they can go after the customers. So we are not 
only looking at the websites, we are looking at the possessors 
that facilitate it as well.
    We are doing aggressive prosecutions of individuals and 
making sure that we obtain stiff penalties, many of which you 
have provided to us in the laws that you have passed. In fact, 
one individual in Virginia just got a 150-year sentence for 
trafficking in child pornography.
    Just to step back and give you a recent example that I 
think brings this problem home, there was an individual in the 
District of Columbia by the name of Bruce Schiffer who was 
sentenced in August of this year to 25 years in prison. Mr. 
Schiffer had 11,000 images of child pornography. He selected 
files to be uploaded and downloaded to the public. He published 
it on the Internet. He tried to entice young boys to take 
pictures of themselves and their friends and to be more and 
more sexually graphic in the depictions.
    When they went to do a search warrant on his home, they 
found letters of correspondence between him and inmates about 
some of his activities. He talked about wanting to rape 
children, his desire to do so with boys in between the ages of 
6 and 16. They found a clown suit in his closet. They found a 
Mapquest route that showed the route from his place of work to 
a boys shelter.
    This is indeed an epidemic, as you said. We must go after 
individuals like this and bring the penalties that you have 
given us to bear against them. There is no question that it is 
going to take all of us, our educators, our communities, 
Congress, prosecutors, law enforcement across the country, to 
be committed and dedicated. We certainly are at the Department 
of Justice and the Attorney General reminds us of this every 
day. He has made it a leading priority for the Department.
    So thank you very much for letting me come testify today.
    [The prepared statement of Ms. Fisher follows:]

  Prepared Statement of Alice S. Fisher, Assistant Attorney General, 
   Criminal Division, Department of Justice; Accompanied by James E. 
                                Finch, 
  Assistant Director, Cyber Division, Federal Bureau of Investigation
    Mr. Chairman, Senator Inouye, and distinguished Members of the 
Committee, thank you for inviting me to testify before you today about 
the sexual exploitation of children on the Internet and the efforts of 
the Department of Justice and others to protect our children from this 
horrific abuse. As the Attorney General has made clear, protecting our 
children from sexual exploitation on the Internet is one of the highest 
priorities of the Department of Justice. The Department is committed to 
using every available means to identify, investigate, and prosecute 
those who use the Internet to sexually exploit our children. The 
Criminal Division, alongside the U.S. Attorneys' Offices, has taken a 
leading role in this effort.
    Of course, the Department of Justice is not alone in this fight. 
Congress has played an absolutely indispensable role, most recently 
with the passage of the landmark Adam Walsh Child Protection and Safety 
Act of 2006. Let me take this opportunity to thank you for passing this 
important piece of legislation. In addition, Federal law enforcement 
agencies such as the Federal Bureau of Investigation (FBI), the 
Department of Homeland Security's Immigration and Customs Enforcement 
(ICE), and the United States Postal Inspection Service (USPIS), as well 
as state and local law enforcement agencies nationwide, have made 
invaluable contributions to protecting our children. Finally, non-
governmental organizations such as the National Center for Missing & 
Exploited Children, have played a critical role, not only contributing 
greatly to public awareness of the threats of sexual exploitation on 
the Internet, but also in assisting law enforcement by facilitating 
reporting of these crimes and identifying and locating children so that 
they can be rescued.
The Problem
    While the Internet is one of the greatest inventions of the last 
century, unfortunately, it has also largely contributed to the 
exacerbation of the child pornography epidemic. As if the creation of 
shocking images of child sexual abuse were not awful enough, it is only 
the beginning of a cycle of abuse. Once created and then posted on the 
Internet, images of child pornography become permanent records of the 
abuse they depict and can haunt the victims literally forever. Notably, 
advances in technology have made it both easier for offenders to 
distribute these images to each other, and more difficult to remove 
these images from the Internet. Worse still, pedophiles rely on these 
images to develop plans of action for targeting their next victims, and 
then use the images to entice them. What is more, because these 
offenders often compete to see who can produce the most unthinkable 
photos or videos of raping and molesting children, the Internet has led 
to the victimization of younger and younger children.
    It is critical to recognize that virtually all images of child 
pornography depict the actual sexual abuse of real children. In other 
words, each image literally documents a crime scene. Most Americans, of 
course, innately understand that child pornography is a heinous crime. 
Even so, I believe very few realize just how graphic, sadistic, and 
horrible these images have become and the dangerous environment the 
market for child pornography has created for children.
    These images make your stomach turn. Images have been produced, for 
example, of young toddlers, including one in which a baby is tied up 
with towels, desperately crying in pain, while she is being brutally 
raped and sodomized by an adult man. Likewise, videos are being 
circulated of very young daughters forced to have intercourse and oral 
sex with their fathers.
    With the market for child pornography becoming increasingly 
prolific and characterized by an escalating level of abuse, children 
face greater danger from sexual predators than ever before. Before the 
Internet, pedophiles were isolated. Now, with large communities on the 
Internet dedicated to pedophilia and the exchange of child pornography, 
the illicit sexual desires and conduct of these individuals are 
validated and encouraged. This emboldens offenders to produce, receive, 
and distribute more shocking, graphic images, which increasingly 
involve younger children and even infants. The compulsion to collect 
child pornography images coupled with the validation and encouragement 
found on the Internet may lead to a compulsion to molest children or 
may be indicative of a propensity to molest them. Indeed, constant 
exposure to child pornography can break down the natural barriers to 
contact offenses.
    The scope of the danger facing our children via the Internet is 
immense. By all accounts, at any given time, thousands of predators are 
on the Internet prowling for children. The explosive increase in child 
pornography fueled by the Internet is evidenced by the fact that from 
1998 to 2004, the National Center for Missing & Exploited Children's 
CyberTipline experienced a thirty-fold increase in the number of child 
pornography reports.
    The challenge we face in cyberspace was recently underscored by a 
new national survey, released in August 2006, conducted by University 
of New Hampshire researchers for the National Center for Missing & 
Exploited Children. The study revealed that a fully one-third of all 
children aged 10 to 17 who used the Internet were exposed to unwanted 
sexual material. Much of it was extremely graphic.
    The survey also revealed, however, that we are making progress. It 
found that there has been some reduction in the number of children who 
have received an online sexual solicitation. One in seven children 
surveyed this time had received an online sexual solicitation, which is 
an improvement over the one in five children who received such 
solicitations in the last survey, conducted 5 years ago. We are hopeful 
that this means that parents and kids are becoming more aware of the 
dangers online, and more responsible in the way they use the Internet. 
That said, we have a lot of work to do. One in seven kids receiving 
solicitations is one in seven too many. And this most recent survey 
showed that there has been no letting up of aggressive online sexual 
solicitations, where the most depraved of the pedophiles actually try 
to make in-person contact with a child.
    In short, the opportunities for predators that have been created by 
the Internet demand an overwhelming response from law enforcement.
The Department of Justice Response
    At the Department of Justice, we take the responsibility of 
attacking the problems resulting from predators' increased abuse of the 
Internet very seriously. The Department is constantly seeking to 
improve the quality and impact of its cases by taking a systematic 
approach. Indeed, over the last decade, the Department has 
significantly increased its efforts by dramatically increasing the 
number of prosecutions of child exploitation crimes. I would like to 
highlight four different approaches the Department has taken to ensure 
that our children are protected from the predators who seek to 
victimize them. First, the Department has launched a series of 
initiatives and partnerships--including the Attorney General's Project 
Safe Childhood initiative--designed to ensure that we have an army of 
people equipped to combat this epidemic. Second, we are striving to 
ensure that our investigative techniques adapt to the ever-changing 
methods by which the predators seek to purvey these images and evade 
detection by law enforcement. Third, working with our partners at the 
Federal, state, and local levels, we have launched high-profile 
nationwide investigations that not only have resulted in a large number 
of convictions but also have the potential for maximum deterrent 
effect. Fourth, we continue to aggressively prosecute individual 
offenders, with a special emphasis on those who have a history of 
sexually exploiting children.
Project Safe Childhood and Strategic Partnerships
    The Attorney General significantly expanded our efforts to address 
the sexual exploitation of children on the Internet this year by 
launching the Project Safe Childhood initiative. Project Safe Childhood 
will help law enforcement and community leaders develop a coordinated 
strategy to deter, investigate, and prosecute sexual predators, 
abusers, and pornographers who target our children. It will do so by 
creating, on a national platform, locally-designed partnerships to 
investigate and prosecute Internet-based crimes against children.
    The Attorney General has said that he sees this initiative as a 
strong, three-legged stool. One leg is the Federal contribution led by 
U.S. Attorneys; another is state and local law enforcement, including 
the outstanding work of the Internet Crimes Against Children task 
forces funded by the Department's Office of Justice Programs; and the 
third is non-governmental organizations, like the National Center for 
Missing & Exploited Children--without which we would not have the 
CyberTipline and victim advocates.
    No leg of this stool can stand alone. Indeed, one of Project Safe 
Childhood's key benefits will be in raising the level of coordination 
among all state, local, and Federal law enforcement as well as non-
governmental organizations, and the sharing of knowledge and 
information that coordination will foster.
    The Attorney General has asked that each Project Safe Childhood 
task force begin with three major steps to put this important program 
into action. The first step is to build partnerships and capitalize on 
the experience of our existing partners. U.S. Attorneys will engage 
everyone with a stake in the future of our children. Together, they 
will inventory the unique nature of the challenge and the resources 
available in the community. Second, these partners will work together 
as U.S. Attorneys develop a strategic plan for Project Safe Childhood 
in their area. Third, we will be ensuring accountability by requiring 
semi-annual progress reports. The Attorney General wants to know that 
Project Safe Childhood is having a measurable impact in terms of 
locking away criminals and identifying and rescuing child victims.
    In the Department's Criminal Division, we are working in tandem 
with our Project Safe Childhood partners around the country in order to 
effectively protect children from these crimes in every neighborhood 
nationwide. The Criminal Division's Child Exploitation and Obscenity 
Section (CEOS), for example, is contributing its specialized expertise, 
participating in training programs and prosecuting cases jointly with 
the U.S. Attorneys' Offices. One of the main benefits of Project Safe 
Childhood is the coordination of scarce law enforcement resources so 
that when leads from nationwide operations are sent out to the field, 
state and local law enforcement in the area where the target is located 
will be able effectively to investigate and prosecute those leads. CEOS 
is helping to develop and coordinate these local programs and national 
operations, and then working with the U.S. Attorneys' Offices and with 
Federal, state, and local law enforcement across the country to ensure 
that these operations have maximum impact.
    In addition to Project Safe Childhood, the Department has launched 
a number of other initiatives to protect children from exploitation. 
The first of these is the Innocence Lost Initiative, which combats 
domestic child prostitution. The Innocence Lost Initiative is a 
partnership between the Criminal Division's CEOS, the Violent Crimes 
and Major Offenders Section of FBI Headquarters and the National Center 
for Missing & Exploited Children. As of July 26, 2006, the Innocence 
Lost Initiative has resulted in 228 open investigations, 543 arrests, 
86 complaints, 121 informations or indictments, and 94 convictions in 
both the Federal and state systems. As part of this initiative, the 
Department has developed an intensive week-long training program on the 
investigation and prosecution of child prostitution cases, held for 
members of multi-disciplinary teams from cities across the United 
States. The Department is also playing a leading role in the 
prosecution of Innocence Lost Initiative cases, either by helping to 
stand-up Innocence Lost task forces around the country, directly 
prosecuting the cases with the local United States Attorneys' Offices, 
or providing coordination, advice, and assistance to prosecutors in 
cases where it is not directly involved.
    Another important part of our efforts is our initiative to protect 
children from child sex tourism, undertaken by the Department in 
conjunction with Immigration and Customs Enforcement (ICE). Child sex 
tourism occurs when offenders travel to foreign countries and sexually 
exploit children, and is another form of sex trafficking of children. 
As with our efforts to increase the prosecution of child prostitution 
cases through the Innocence Lost Initiative, we have been working to 
increase the number of child sex tourism cases investigated and 
prosecuted in order to address the serious offense of Americans 
sexually exploiting children in foreign countries. Since the passage of 
the PROTECT Act in April 2003, which facilitated the prosecution of 
these cases, there have been approximately 55 indictments and 36 
convictions, with more than 60 additional investigations currently 
underway. We also provide training and advice to foreign governments 
regarding their domestic trafficking laws and prosecution efforts in 
order to combat trafficking on a global level.
    The Department of Justice is also actively enforcing record-keeping 
and labeling requirements designed to ensure that minors are not filmed 
engaging in sexually explicit activity. These requirements are 
contained in Section 2257 and the new 2257A of Title 18 and were 
enacted to prevent the sexual exploitation of minors by requiring 
producers of sexually explicit conduct to obtain written identification 
showing that the performers are adults and also to label materials 
identifying a custodian of those records. The FBI, at the direction of 
the Attorney General, has begun to conduct random administrative 
inspections of producers to ensure that they are obtaining and 
maintaining the necessary documents. In addition, we are prosecuting 
offenders criminally. The Department's Obscenity Prosecution Task Force 
recently obtained a guilty plea from Mantra Films, doing business as 
Girls Gone Wild, in which the company admitted that it failed to 
maintain appropriate records and agreed to pay considerable fines and 
restitution. A related company agreed to the appointment of a corporate 
monitor to ensure future compliance by Girls Gone Wild. Producers of 
sexually explicit materials know that they will be prosecuted if they 
do not comply with this important law that protects our children from 
sexual exploitation.
Sophisticated Investigative Techniques
    Child pornography is distributed over the Internet in a variety of 
ways, including: online groups or communities, file servers, Internet 
Relay Chat, e-mail, peer-to-peer networks, and commercial websites. The 
Department of Justice investigates and prosecutes offenses involving 
each of these technologies.
    Sophisticated investigative techniques, often involving undercover 
operations, are required to hold these offenders accountable for their 
crimes. For example, an investigation of a commercial child pornography 
website is launched on multiple fronts. We must first determine where 
the servers hosting the website are located, which can change from day 
to day to locations virtually anywhere in the world. Then, in order to 
find the persons responsible for operating the website, we must follow 
the long and complex path of the financial transactions the offenders 
use to profit from the sale of child pornography, whether by credit 
card or other means. Finally, we must address the thousands of 
customers of the website, because research tells us that many will pose 
a dangerous threat to children. This requires detailed information 
about all aspects of the transaction in order to determine the identity 
and location of these offenders. As many of these cases require 
coordination with law enforcement from other countries, involve complex 
technical issues, and can touch virtually every Federal district in the 
United States, it is essential that these complex cases be handled by 
law enforcement agents and prosecutors with a broad reach and the 
necessary specialized expertise.
    To defeat the misuse of these various technologies, the Department 
of Justice must match, or even exceed, the innovation being shown by 
the online offenders. Along with our critical law enforcement partners, 
the Department has greatly enhanced its ability to respond to--and 
indeed anticipate--the misuse of technological advances by these 
offenders. The Department's Child Exploitation and Obscenity Section, 
for example, has created a group of computer forensic specialists, 
called the High Tech Investigative Unit (HTIU), who team up with expert 
prosecutors to ensure the Department of Justice's capacity and 
capability to prosecute the most technologically complex and advanced 
offenses committed against children online. The HTIU's computer 
forensic specialists provide expert forensic assistance and testimony 
in districts across the country in the most complex child pornography 
prosecutions conducted by the Department of Justice. They also conduct 
numerous training seminars to disseminate their specialized knowledge 
around the country.
    Among its technological advances, the HTIU has developed a file 
server investigative protocol and software programs designed to quickly 
identify and locate individuals distributing pornography using 
automated file-server technology and Internet Relay Chat. Because file 
servers, or ``f-serves,'' provide a highly effective means to obtain 
and distribute enormous amounts of child pornography files, 24 hours a 
day and 365 days a year, with complete automation and no human 
interaction, this trafficking mechanism is a premier tool for the most 
egregious child pornography offenders. The protocol recommends 
standards for identifying targets, gathering forensic evidence, 
drafting search warrants, and making charging decisions. It is designed 
for both agents and prosecutors to ensure that all aspects of these 
relatively complex investigations are understood by all members of the 
law enforcement team. The software program automates the process of 
stripping from the computers used as file-servers all of the 
information necessary to make prosecutions against all of the 
individuals sharing child pornography with the file-server computer.
    These advances in investigative technologies are achieving success. 
For example, the HTIU's file server initiative contributed to the 
successful prosecution by the U.S. Attorney's Office for the District 
of Columbia and the Criminal Division in the case of United States v. 
Schiffer. In this case, which was investigated by the FBI, the 
defendant pled guilty in October 2005 to one count each of using his 
computer to advertise, transport, receive, and possess child 
pornography. By operating his personal computer as a file server, the 
defendant allowed selected files to be downloaded and uploaded by the 
public to and from his computer. He even published on the Internet an 
advertisement aimed at young boys that enticed them to photograph 
themselves or other boys, so that he could collect and disseminate more 
sexually explicit images. Among the items seized from the defendant's 
bedroom, pursuant to a search warrant, were two boxes of catalogued 
correspondence between the defendant and roughly 160 prison inmates, 
the vast majority of whom had either sexually assaulted or murdered 
children. In his letters, he discussed his ``desire to rape children,'' 
preferably boys between 6 and 16. Schiffer also wrote in detail about 
taking in runaways and ``making use of them.'' Investigators also found 
a clown suit and a printout of a Mapquest route from his place of work 
to a boys' shelter.
    On August 30, 2006, the defendant was sentenced to 25 years in 
prison for the high tech advertising and distribution of more than 
11,000 images of child pornography. In addition, upon his release, the 
defendant will be required to abide by strict conditions, including no 
computer use except in the context of authorized employment, no 
possession of pornographic images, and supervision by a probation 
officer for life. In sentencing this defendant, the Honorable Paul L. 
Friedman captured the devastating impact of the defendant's crimes in 
words that I would like to read to you today: ``by advertising and 
exchanging these images, the defendant was expanding the market for 
child pornography, and that market is made up of kids who are being 
exploited, and thus it is damaging to the whole community of 
children.'' We could not agree more with Judge Friedman.
    United States v. Mitchel, investigated by the FBI and prosecuted by 
the Criminal Division in conjunction with the United States Attorney's 
Office for the Western District of Virginia, is another recent success 
story. This case involved child pornography websites that sold 
membership subscriptions to offenders looking to obtain videos of minor 
boys engaging in sexually explicit conduct. The defendant was sentenced 
on July 14, 2006 to 150 years in prison based on his guilty plea to 
offenses involving the production, distribution, sale, and possession 
of child pornography.
Large Scale Investigations
    In order to crack down on the pervasive problem associated with 
online child pornography, it is critical that we focus on major 
investigations. For that reason, we are currently coordinating 18 
multi-district operations involving child pornography offenders and the 
Internet. These national investigations have the potential for maximum 
deterrent effect on offenders. Nearly each one of the eighteen 
investigations involves hundreds or thousands, and in a few cases tens 
of thousands, of offenders. The coordination of these operations is 
complex, but their results can be tremendous.
    For example, several of our nationwide operations have resulted 
from FBI investigations into the distribution of child pornography on 
various eGroups, which are ``members-only'' online bulletin boards. 
Notably, as of January 2006, the FBI's investigation has yielded over 
180 search warrants, 89 arrests, 162 indictments, and over 100 
convictions. Another example of a high-impact national operation 
targeting Peer-to-Peer technology is the FBI's Operation Peer Pressure, 
which, as of January 2006, has resulted in over 300 searches, 69 
indictments, 63 arrests, and over 40 convictions.
    The Department has had substantial success in destroying several 
major child pornography operations. In one such case, announced by the 
Attorney General on March 15, 2006, law enforcement--as part of an 
undercover investigation--infiltrated a private Internet chat room used 
by offenders worldwide to facilitate the trading of thousands of images 
of child pornography, including streaming videos of live molestations. 
The chat room was known as ``Kiddypics & Kiddyvids,'' and was hosted on 
the Internet through the WinMX software program that also allowed users 
to engage in peer-to-peer file sharing. The case has resulted in 
charges against 27 individuals to date in the United States, Canada, 
Australia, and Great Britain (13 of these 27 have been charged in the 
United States). One of the 27 charged defendants is a fugitive. Seven 
child victims of sexual molestation have been identified as a result of 
the investigation, and four alleged molesters are among the 27 
defendants charged to date in the continuing investigation. This 
investigation is international in scope and results from the 
Department's partnerships with Immigration and Customs Enforcement, 
state and local authorities, and international law enforcement 
agencies.
    In United States v. Mariscal, investigated by the United States 
Postal Inspection Service and prosecuted by CEOS and the United States 
Attorney's Office for the Southern District of Florida, the defendant 
received a 100-year prison sentence on September 30, 2004, after being 
convicted on seven charges, including conspiracy to produce, 
importation of, distribution of, advertising of, and possession with 
intent to sell child pornography. The defendant traveled repeatedly 
over a seven-year period to Cuba and Ecuador, where he produced and 
manufactured child pornography, including videotapes of him sexually 
abusing minors, some under the age of 12. As a result of his arrest, 
his customers across the country were targeted by the U.S. Postal 
Inspection Service in Operation Lost Innocence. As of August 2006, Lost 
Innocence has resulted in 107 searches, 64 arrests and/or indictments, 
and 51 convictions.
    An excellent example of how one child pornography investigation 
into the activities of individuals involved in a commercial website 
operation can lead to the apprehension of hundreds of other offenders 
is the Regpay case. This case was prosecuted by the United States 
Attorney's Office for the District of New Jersey working together with 
CEOS, and led to Immigration and Customs Enforcement's (ICE) Operation 
FALCON. Regpay was a Belarus-based company that provided credit card 
processing services to hundreds of commercial child pornography 
websites. Regpay contracted with a Florida company, Connections USA, to 
access a merchant bank in the United States. In February 2005, several 
Regpay defendants pled guilty to various conspiracy, child pornography, 
and money laundering offenses. Connections USA and several of its 
employees also pled guilty in connection with this case. After 
exploiting customer information associated with the Regpay websites, 
ICE launched Operation Falcon, an international child pornography 
trafficking investigation. As a result, ICE was able to generate 
numerous additional leads identifying offenders who had purchased child 
pornography from the Regpay websites.
    As I noted at the outset, the images these predators create, 
collect, and disseminate depict actual sexual abuse of real children. 
The Department's nationwide efforts thus extend beyond the challenge of 
tracking down the perpetrators: we are also taking steps to identify 
and rescue the victims depicted in the images of child pornography. One 
method for achieving this goal is already underway. The FBI Endangered 
Child Alert Program (ECAP) was launched on February 21, 2004, by the 
FBI's Innocent Images Unit, and is conducted in partnership with the 
Department's Criminal Division. The purpose of ECAP is to identify 
unknown offenders depicted in images of child pornography engaging in 
the sexual exploitation of children. Since ECAP's inception, seven of 
these ``John Doe'' subjects have been profiled by America's Most 
Wanted, and with the assistance of tips from viewers, six have been 
identified. More importantly, 35 victims (so far) in Indiana, Montana, 
Texas, Colorado, and Canada have been identified as a result of this 
initiative. All of the victims had been sexually abused over a period 
of years, some since infancy. The Department will continue to ensure 
that this program is utilized to its maximum potential.
Prosecutions of Individuals
    In addition to contributing to the success of major operations, the 
expertise and assistance that the Criminal Division provides in child 
exploitation cases--whether from experienced prosecutors or from 
specialized computer forensic specialists--is absolutely critical to 
the successful prosecution of individual defendants who pose real 
threats to children. In short, our involvement in individual cases 
makes a real difference in protecting children. The offenders we 
incarcerate often have a history of sexually exploiting children. 
Keeping them off the street has undoubtedly prevented untold numbers of 
children from becoming victims.
    The following are just a few examples of some of our cases against 
these repeat offenders:

  <bullet> In United States v. Wilder, the Criminal Division worked 
        with the United States Attorney's Office for the District of 
        Massachusetts to prosecute a repeat child pornography offender. 
        After this defendant had been released from prison for a prior 
        child pornography offense, he violated the terms of his 
        supervised release by committing additional child pornography 
        offenses. Not only was he re-incarcerated for violating the 
        terms of his supervised release, but we prosecuted him for 
        those new offenses. He was convicted on March 21, 2006, 
        following a jury trial. As a repeat offender, he faced a 
        mandatory minimum sentence of 15 years in prison, which he 
        received when he was sentenced on June 28, 2006.

  <bullet> In United States v. Wilson, the Criminal Division and the 
        United States Attorney's Office for the Southern District of 
        Indiana prosecuted a defendant who was caught with a 14-year-
        old runaway girl and who was convicted in state court for 
        molesting her. Using metadata, link file analysis, chat logs, 
        e-mail, and other forensic evidence, the HTIU was able to pin 
        the child pornography specifically to the defendant, which 
        precluded a possible defense argument that the child 
        pornography did not belong to him. On December 8, 2005, the 
        defendant was sentenced to 99 months' Federal incarceration and 
        supervised release for life.

  <bullet> In United States v. Whorley, the Criminal Division worked 
        with the United States Attorney's Office for the Eastern 
        District of Virginia to secure the conviction, on December 1, 
        2005, of a convicted sex offender on 74 counts of receiving 
        obscene material and child pornography. Among his other 
        offenses, the defendant downloaded 20 images of Japanese anime 
        cartoons from the Internet depicting prepubescent minors 
        engaged in sexually explicit behavior. We believe this case was 
        the first charged under 18 U.S.C. Sec. 1466A, which 
        criminalizes obscene visual representations of the sexual abuse 
        of children of any sort, including drawings and cartoons such 
        as the anime cartoons the defendant downloaded. On March 10, 
        2006, the defendant was sentenced to 240 months' imprisonment, 
        to be followed by 10 years' supervised release.

  <bullet> Finally, in United States v. LaFortune, the United States 
        Attorney's Office for the District of Massachusetts and the 
        Criminal Division prosecuted an offender who had previous 
        convictions for raping his own children and for advertising 
        child pornography. He was convicted of advertising, 
        transporting, receiving, and possessing child pornography and, 
        on March 10, 2006, was sentenced to 35 years' imprisonment.

The Adam Walsh Child Protection and Safety Act of 2006
    As I noted at the outset of my remarks, Congress has demonstrated 
both exemplary leadership and invaluable support for the Department's 
efforts generally, and for Project Safe Childhood in particular, by 
passing the Adam Walsh Child Protection and Safety Act of 2006. The 
Adam Walsh Act, signed by the President in July, will help us keep our 
children safe by preventing the sexual exploitation of children and by 
enhancing penalties for such crimes across the board. Let me highlight 
three areas in which this historic legislation bolsters our efforts at 
the Department of Justice to protect children:
    First, the new law establishes the Sex Offender Sentencing, 
Monitoring, Apprehending, Registering and Tracking Office, and it 
assigns the Office numerous important functions relating to the sex 
offender registry. The SMART Office will be led by a Presidentially-
appointed Director. The Department of Justice is working now to 
establish this Office, and it will be immensely valuable to our ongoing 
efforts to protect children from these offenders.
    Second, the new law provides additional statutory authority for 
Project Safe Childhood initiative that I described a few minutes ago. 
We at the Department of Justice very much appreciate Congress's 
expression of support for this key initiative.
    Third, the new law provides that in child pornography prosecutions, 
the child pornography must remain in the control of the government or 
the court. In passing this law, and by enacting findings explaining 
that child pornography constitutes prima facie contraband, and that 
each instance of viewing an image of child pornography is a renewed 
violation of the victim's privacy and a repetition of the victim's 
abuse, Congress has taken a great leap forward in protecting the 
children depicted in these images. While this law is currently being 
challenged by defendants in child pornography cases, we are optimistic 
that the courts will agree that it does not detract from defendants' 
ability to prepare for trial and should thus be upheld.
    In conclusion, protecting children from sexual exploitation over 
the Internet is one of the Department of Justice's highest priorities. 
The Department of Justice is unequivocally committed to investigating 
and prosecuting offenders who seek to sexually exploit our children. We 
thank you for your invaluable support for our efforts and look forward 
to working with you as we continue to hold those who would harm our 
children accountable to the fullest extent of the law.
    Mr. Chairman, I again thank you and the Committee for the 
opportunity to speak to you today, and I would be pleased to answer any 
questions the Committee might have.

    Senator McCain. Thank you very much, Ms. Fisher. I 
appreciate your being here. It is a strong statement.
    Mr. Finch, do you have anything to add to that?
    Mr. Finch. Good afternoon, Senators.
    The FBI treats the exploitation of children as one of its 
highest priorities. These crimes are addressed through the 
Innocent Images National Initiative, which is currently 
composed of 36 undercover operations spread across the country. 
Additionally, the Innocent Images Unit, based miles from here 
in Calverton, Maryland, works hand in hand with the Department 
of Justice Child Exploitation and Obscenity Section to address 
these matters on a national and an international level.
    Our successes include: peer-to-peer initiative, which to 
date has generated over 400 cases and 90 arrests; our e-groups 
initiative, which has resulted in over 100 arrests; and our e-
cap initiative, which has led to the identification of over 30 
victims.
    We work very closely with our Federal, state, and local 
partners. Through Project Safe Childhood, this interaction has 
been formalized and strengthened. I recently visited the FBI 
spaces in Pittsburgh, where members of ICAC are collocated with 
their FBI counterparts. This situation is duplicated in many 
jurisdictions across the country.
    Now, the FBI continues to address commercial websites as a 
priority. There has been much discussion about ICE's Operation 
Falcon, for example. This has been extremely successful. 
However, the Operation Falcon is a direct descendent of the 
FBI's investigation known as Regpay, which was an investigation 
into commercial child pornography websites that ultimately led 
to Eastern Europe.
    Our investigations indicated that most commercial website 
administrators reside and operate from what they perceive as 
safe havens outside the borders of the United States. In 
response to this, the Cyber Division of the FBI created the 
Innocent Images International Task Force as a vehicle for 
engaging countries where we believe we could have the most 
significant impact on removing the source of much of the 
material that the offenders crave. To date over 19 countries 
have participated, sending over 35 officers to serve alongside 
FBI agents at our offices in Calverton.
    Finally, we provided training to all officers who work with 
our FBI Innocent Images Task Force. As we sit today, there are 
I believe 25 FBI, state, local, and international officers 
receiving FBI training at our facility in Maryland.
    Thank you, Senators.
    Senator McCain. Thank you.
    Welcome, Sheriff Brown.

            STATEMENT OF MICHAEL J. BROWN, SHERIFF, 
                    BEDFORD COUNTY, VIRGINIA

    Mr. Brown. Thank you for allowing me to speak today, 
Senator McCain and Senator Burns. With your permission, 
Senator, I have a pretty famous, well-known investigator that 
works for me in Bedford County in the ICAC Task Force. He could 
not be here today, but he has created a DVD that I would 
certainly respectfully ask to be played.
    Senator McCain. We would like to see it now if our staff 
can arrange that.
    [A video was shown, the sound track of which is as 
follows:]
    Mr. O'Neal. Senator McCain and honorable Members of this 
Congressional Committee, I am truly sorry that I could not be 
with you in person today, but I had other commitments that I 
could not cancel. However, I have asked my close friend Sheriff 
Mike Brown to respectfully request that my comments be offered 
to you today for your consideration.
    I am a member of Sheriff Brown's Internet Crimes Against 
Children Task Force, Operation Blue Ridge Thunder, and a 
spokesperson for the Department of Justice Internet Crimes 
Against Children Task Forces, all 46. I am a sworn deputy 
sheriff in the Commonwealth of Virginia and I also work with 
the Miami Beach Police Department's Cyber Crime Unit.
    I have worked with Sheriff Brown's unit for over a year now 
and have come to respect his investigators, as well as other 
ICAC investigators, for the great job they do in protecting our 
children of this country from the sexual predators who prowl 
the Internet looking for their next victim.
    I have seen things while working in this unit that make me 
very sad. I have seen things that make me very mad. I have seen 
images and videos of young children, mainly females, some as 
young as a year old, being sexually assaulted in every way 
imaginable. I have seen images of females 10, 11, 12 years of 
age in dog collars being raped. I have seen images of children, 
boys and girls, performing oral sex on adult males or other 
children of their own age. Yes, I am mad, very mad, Senator.
    Members of the ICAC Task Force see these images every day. 
They used to be just one-dimensional images. Now it is video 
streams. If you know where to look, it could be live streaming 
video. One of the most sought-after videos at this time is one 
of an adult male having sex with what appears to be a 2, 3-
year-old female. He removes her diaper at the start of the 
video.
    I could go on with descriptions of sexual acts with young 
children that I have seen that would make you sick, but I know 
you have a busy day and you need to get on with this Committee 
meeting. In closing, let me say that the computer age has 
opened a whole new world of learning and exploration for our 
children. However, we all need to be aware that the information 
superhighway also has a very dark side. Sexual predators lurk 
on the Internet looking for their next victim, waiting to lure 
innocent children into their web of deviance. Law enforcement 
throughout this country is doing a great job of combatting 
Internet crimes against children, especially the ICAC Task 
Forces around the country. These men and women are experts, 
they are dedicated professionals and some of the hardest 
working personnel I have ever had the opportunity to work with. 
The only problem as I see it is that there are not enough of 
these dedicated men and women working on this problem.
    In closing, please give consideration to the efforts of 
these cyber cops, especially the ones in the child protection 
arena. Thank you for listening, and again I apologize for not 
being able to be there in person. Thank you for the great job 
you do. And Senator, can I have your autograph?
    [Laughter, and end of video.]
    Senator McCain. Sheriff Brown, please extend our 
appreciation to Mr. O'Neal for all that he does. He is a role 
model obviously to millions and millions of young Americans.
    Please proceed, Sheriff Brown.
    Mr. Brown. Thank you, Senator. My name is Mike Brown. I am 
a retired Federal Agent and currently serving as the Sheriff of 
Bedford County, Virginia, home of the National D-Day Memorial. 
Since 1998 I have directed a Department of Justice Internet 
Crimes Against Children Task Force, what we refer to as the 
ICAC, ICAC Task Force, named Operation Blue Ridge Thunder.
    You, the Committee, asked what appropriate controls might 
be placed on child pornography on the Internet and how the 
government can help. First allow me to give you an idea of what 
goes on in this cesspool of child pornography on the Internet, 
what we hear and what we see, and I will be as polite as 
possible in describing some of the stuff that we see. On any 
given day an ICAC Task Force member, an investigator assigned 
to any of the 46 task forces in this country will view, as an 
example, the following.
    The investigators are looking at a computer screen, at a 
young female, as young as 3, 4, or 5 years of age. There is a 
look of stark fear on her face. She is being forced to perform 
any number of graphic sexual acts on an adult male or males--
oral sex, vaginal sex. Many of the images have other adult 
males doing equally disgusting things to this young girl.
    Image after image, video after video, Senators, hundreds, 
hundreds of thousands of them, are available on the Internet. 
In most of the videos and in the images, the cameraman has the 
young female facing the camera. All of her and his genitalia 
are graphically displayed close-up, wide angle, et cetera. 
Unable to stop the rape, she does the only thing she could do 
to protect herself: She shuts her eyes. Most parents understand 
this gesture. When our children are very young they think that 
by closing their eyes they become invisible. They stand in 
front of us, thinking that if they cannot see us we cannot see 
them. This game ends with a lot of giggling, tickling, 
laughter, and hugs. This little girl's attempt to be invisible 
will end in a very different way.
    ICAC Task Force investigators and other investigators 
working in local, state, and federal cyber units see these 
images every day. It used to be just one-dimensional images and 
I do not know how I say ``just,'' but now it is video streams, 
and if you know where to look it can be live video streams--
adults violating young children, as young as 1, 2, 3, 4, 5 
years of age.
    One of the most sought-after videos, which Shaq mentioned, 
Detective O'Neal mentioned in his video, at this time is one of 
an adult male attempting to sexually penetrate what appears to 
be a 2 to 3-year-old female, and he removes her diaper at the 
start of the video.
    Investigators routinely pose, all investigators across the 
local, state, and Federal Government, pose as children, young 
teens and like-minded adults when we go into the chat rooms on 
the Internet. Posing as a child, they simply place their 
profile in a chat room, usually that of a 12, 13, 14-year-old 
female, and then just sit back and wait. In a nanosecond, they 
begin to be hit on by the sexual predators surfing the web for 
their next victim.
    These sexual predators more often than not simply open the 
conversation with: What are you wearing? How big are your 
breasts? And again, I am being very polite. Do you want to have 
sex? Are you a virgin? Would you like someone to urinate, 
defecate on you? Would you do that to me? The predator then 
offers or just sends porn pictures, sometimes adult, often 
child.
    When posing as a like-minded adult, our investigators are 
often engaged by parents, if you can imagine, or caretakers 
wanting them to share in the abuse and/or sexual exploitation 
of the children in their care. These parents and caretakers are 
often the persons responsible for the manufacturing and 
distribution of the horrific pictures and videos available on 
the web today.
    You ask about controls and what the government can do to 
help. The controls are already there, I believe, in the form of 
the Federal laws found in Chapter 110, Title 18, United States 
Code, which prohibits all aspects of the child pornography 
trade, including production, receipt, transportation, 
distribution, possession, and also other codes dealing with the 
enticement of children to engage in unlawful sexual acts.
    We would ask that you support these code sections with the 
following, just to mention a few: ensure through hefty fines 
that communications services providers report the presence of 
child pornography on their systems and do so in a timely 
manner:
    Improve data retention requirements for all ISPs. We would 
certainly want 6 months as a minimum; 1 year would be 
preferred.
    Encourage foreign governments to crack down on child porn, 
which I know we are doing, but a little more twisting of the 
arm, to crack down on their country and to work with their law 
enforcement agencies, not only our Federal partners, but also 
our national ICAC teams.
    Pursue efforts to ensure that taxpayers' dollars are never 
used to fund Internet access without appropriate transactional 
logging to allow the location of individuals that use that 
access in the exploitation of children.
    I would encourage continued support of the ICAC efforts to 
coordinate child exploitation investigations through the ICAC 
data network. That is a new system that is being--hopefully it 
will be on-line, hopefully within 6 months or so, to help us in 
our investigations. Currently we have over 6 million types of 
cases on this, on our current system, computer system.
    Additionally and probably the most important is, please 
consider increasing financial support to the ICAC program. The 
ICAC Task Forces are making tremendous progress in the 
investigation and prosecution of individuals using the Internet 
in their criminal activities involving child pornography. All 
46 task forces maintain conviction rates that would be the envy 
of any law enforcement agency in this country. I am not sure 
that we need more task forces, but we certainly need additional 
personnel, training, and equipment within these task forces.
    In closing, at this time I would like to extend a formal 
invitation to you, Senator, and to you, Senator Burns, to 
visit, or someone on your staff; I know you probably do not 
have the time; to visit, to drive down to Bedford--it is only 
3\1/2\ hours south of D.C.--and to visit one of your task 
forces, the ICAC Task Force, Operation Blue Ridge Thunder, at 
their undercover location, which is located just outside of 
Lynchburg, Virginia. I think you will leave or your staff 
person will leave with a sense of urgency to do whatever is 
necessary to protect the most precious commodity that we could 
ever have and that is our children.
    Thank you, Senator.
    [The prepared statement of Mr. Brown follows:]

   Prepared Statement of Michael J. Brown, Sheriff, Bedford County, 
                                Virginia
    Senator McCain and distinguished Members of this Committee, thank 
you for inviting me to testify before you today.
    My name is Mike Brown; I am the Sheriff of Bedford County, VA, home 
of the National D-Day Memorial. I am a retired Federal agent with 42 
years of law enforcement experience on a local, national and 
international level.
    Since 1998, I have directed a Department of Justice, Office of 
Juvenile Justice and Delinquency Prevention, Internet Crimes Against 
Children Task Force . . . or, to shorten that a bit . . . an ICAC Task 
Force named Operation Blue Ridge Thunder. Our task force is responsible 
for Virginia and West Virginia, with the exception of five counties in 
Northern Virginia which are ably protected by the Virginia State Police 
ICAC Task Force.
    I will not take up your time, nor my allotted time, by giving you a 
lot of statistics . . . your staffers are quite capable of researching 
this subject and providing you with reams and reams of stats, charts 
and graphs about children and the Internet, porn and the Internet, 
sexual solicitation over the Internet, unwanted exposure to sexual 
material, etc.
    You asked that I address what, if any, appropriate controls might 
be placed on child pornography on the Internet, and how the government 
can help.
    First, let me give you an idea of what goes on in this cesspool of 
child porn on the Internet . . . what we hear and a description of what 
we see.
    On any given day an ICAC Task Force Investigator, assigned to any 
of the 46 task forces, will view the following:
    The investigators are looking at a young female, as young as 3 to 4 
years of age (the images can be either digital images or videos) . . . 
there is a look of stark fear on her face. She is being forced to 
perform any number of graphic sexual acts with an adult male or males . 
. . oral sex, vaginal sex, anal sex; many of the images have another 
adult male ejaculating on this young girl, most of the time on her 
face. Image after image . . . video after video . . . hundreds of 
thousands of them!
    Parry Aftab, Cyber-Lawyer described the scene best, and I 
paraphrase:
    ``In most of the videos the cameraman has the young female facing 
the camera. All of her, and his, genitalia are graphically displayed in 
the video . . . close-up, wide angle, overhead, side . . . a flash or 
special lighting is clearly being used and shone in her face to 
illuminate the graphic rape. The little girl was not only being 
painfully molested, she was forced to bear the additional humiliation 
of being filmed at the same time. Unable to stop the rape, she did the 
only thing she could do to protect herself: She shut her eyes.
    Most parents understand this gesture. When our children are very 
young, they think that by closing their eyes they become invisible. 
They stand in front of us, thinking that if they can't see us, we can't 
see them. `Mommy, can you see me?' is the game of the day, and we all 
pretend that we can't. We call out to them, `Where are you? We can't 
see you!' pretending to look everywhere for them. The game ends with 
lots of giggling, tickling, laughter, and hugs. This little girl's 
attempt to be invisible would end very differently.''
    Welcome to the world of child pornography on the Internet.
    ICAC Task Force investigators, and other investigators working in 
local, state and Federal cyber units, see these images every day . . . 
it use to be just (forgive me, how do I say ``just'') one-dimensional 
images, now it`s video ``streams'', and if you look hard enough it can 
be live ``stream'' video. One of the most sought-after videos at this 
time is one of an adult male attempting to sexually penetrate what 
appears to be a 2 to 3 year old female. He removes her diaper at the 
start of the video. Investigator O'Neal mentions this in his recorded 
comments to this Committee.
    There is a 40-second video clip, according to Department R, Russian 
Police (Unit in charge of hi-tech crimes), where two sexual predators 
have sex with a young girl (10-12 years old?) after which they stab 
her, cut off her ears and smash her face to a bloody pulp. This clip, 
as reported by the Russian police, was first noticed by the U.S. 
authorities. U.S. police experts assert that the video footage 
represents real activity, not imitation.
    Our investigators routinely pose as children, young teens, and 
like-minded adults, in chat rooms on the Internet. Posing as a child 
they simply place their profile in the chat room, usually a 12, 13, 14-
year-old female . . . and then just sit back and wait. In a nanosecond 
they begin to be ``hit'' on by the sexual predator surfing the web for 
his next victim. Sometimes the predator takes his time and tries to 
schmooze his way in. More often that not, they simply open the 
conversation with, ``What are you wearing, how big are your breasts 
(and I'm being polite), do you want to have sex, if I send you a video 
cam would you masturbate for me, would you like to see me masturbate, 
how far have you and your boyfriend gone . . . oral sex, anal sex, 
vaginal sex, are you a virgin, do you like to perform oral sex, how big 
is your boy friend's penis, would you like to have sex with a real man 
with a big penis, would you like for someone to urinate/defecate on 
you'' . . . and then offers or just sends porn pictures . . . sometimes 
adult, often child.
    When posing as a like minded adult they are often engaged by 
parents or care-takers wanting them to share in the abuse, and/or 
sexual exploitation of children in their care. These caretakers and 
parents are often the persons responsible for the manufacturing and 
distribution of the horrific pictures and videos available on the web 
today.
    Welcome to the world of child pornography on the Internet.
What Can Our Government Do?
    Now to address what, if any, appropriate controls might be placed 
on child pornography on the Internet, and how the government can help.
    The controls are already there in the form of our Federal law, 
codified at Chapter 110 of Title 18, 2251, United States Code, which 
prohibits all aspects of the child pornography trade, including its 
production, receipt, transportation, distribution, advertisement, 
possession, and enticing children to engage in unlawful sexual acts.
    We can support these code sections with the following, just to 
mention a few:

  <bullet> Federal courts that ensure the application of the 
        appropriate punishment for convicted persons.

  <bullet> Ensure, through hefty fines, that communication services 
        providers report the presence of child pornography on their 
        systems, and do so in a timely manner.

  <bullet> Improve date retention requirements for all ISPs (6 months 
        min., 1 year preferred).

  <bullet> Encourage foreign governments to crack down on child porn in 
        their country and to work with our law enforcement agencies, 
        not only our Federal agencies, but our national ICAC Task 
        Forces.

  <bullet> Pursue efforts to insure that taxpayer dollars are never 
        used to fund Internet access without appropriate transactional 
        logging to allow the location of individuals that use that 
        access in the exploitation of children. How can we in good 
        conscience demand that corporate Internet service providers log 
        transactions if our own government, be it municipal, state, 
        Federal, or educational institutions fail to do the same.

  <bullet> I would encourage continued support for the ICAC effort to 
        coordinate child exploitation investigations through the ICAC 
        Data Network. The computer systems used to facilitate our 
        reactive and proactive investigations now represent over 6 
        million transactions involving criminal exploitation of 
        children. The volume of information is overwhelming and we must 
        fight to leverage technology as a force multiplier, giving us 
        greater capabilities with our limited manpower.

    In my forty-two years of law enforcement experience I don't think 
I've ever worked with a more dedicated and professional group of 
criminal investigators . . . investigators like Flint Waters * (WY), 
Dave Peifer (PA), Ronnie Stevens (NY), Scott Christensen (NE), Mike 
Harmony (VA) . . . and, retired legend, Sergeant Nick Battaglia (CA). 
And, being from the Federal system I know what a good administrator is, 
and the ICAC Task Forces have two of the best . . . OJJDP's 
Administrator Bob Flores, and Ron Laney, Director, Child Protection 
Division, OJJDP. I salute them all!
---------------------------------------------------------------------------
    * This man could be making a million dollars in the private sector, 
but he chooses to stay in the public sector helping keep our children 
safe from the sexual predators that prowl the Internet.
---------------------------------------------------------------------------
An Invitation
    At this time I would like to extend a formal invitation to this 
Committee, or someone on your staff, to drive down to Bedford, its only 
about 3.5 hours southwest of D.C., and visit one of your ICAC Task 
Forces, Operation Blue Ridge Thunder, at their undercover location just 
outside of Lynchburg, Virginia. You will leave this location with a 
sense of urgency to do whatever is necessary to protect our most 
precious commodity . . . our children.
    I invite you to look at the attached information for the ICAC Task 
Forces and view the brief remarks that follow. This is a clear 
representation of the work that the ICAC are doing and what they have 
and can do in the future.

----------------------------------------------------------------------------------------------------------------
                                                  1998-2002    2003     2004        2005         2006    Totals
----------------------------------------------------------------------------------------------------------------
Travel/Enticement                                     1,810      581      835           3,429    4,349    11,004
CP Manufacture                                          322      116    3,933          34,062    1,724    40,157
CP Distribute                                         2,836      768    9,724         154,545    4,040   171,913
CP Posession                                          5,617   11,726    6,783           6,306    5,042    25,474
                                                ----------------------------------------------------------------
Totals*                                              10,028    3,637   24,138     ****198,883   16,423   253,109
----------------------------------------------------------------------------------------------------------------
Arrest                                                1,418    1,474    1,575           1,623    1,744     7,834
Victims ID**                                            N/A      N/A      141             275    1,135     1,551
Technical Support***                                    N/A    3,563    4,871           6,143    6,784    21,361
Forensic Examinations***                                 NA    2,594    2,770           6,131    8,406    19,901
LEO/Pros. Trained***                                    N/A    5,487   14,561          12,502   16,413    48,963
Case Referrals                                        1,980    1,205    4,718           3,869    3,689    15,461
----------------------------------------------------------------------------------------------------------------
* 2006 Stats thru July 2006.
** Victim ID Collection Started 2004.
*** Data not available.
**** Task Forces started collecting P2P Transaction Data, stopped after only 2 months. 6 Million Transactions in
  24 Months.

    The 2006 stats are only through July of 2006. The ICAC program is 
on pace to hitting some milestones, to include breaking 2,000 arrests 
in one fiscal year, as well as breaking the 8,000 mark since the 
program's start.
    Please note: Traveler/Enticement cases indicate a significant 
increase from FY05 to FY06. So far in FY06 there are almost a 1,000 
more cases of traveler/enticement over last year. That's about a 32 
percent increase already this year, with several months' worth of data 
not in.
    Additionally, in my opinion it is very noteworthy that the number 
of victims identified as a result of ICAC cases has increased . . . a 
total of over 1,500 in just 2 years. To clarify; these are child 
victims who have been identified as a result of an ICAC investigation.
    Lastly, the number of Forensic Exams the ICACs have already 
completed in FY06 is staggering . . . knowing how much data is due for 
the remainder of this fiscal year. If I were to guess, this number will 
break 10,000. I would also assume that this is due, in large part, to 
the increased number of computers being seized on any given case which, 
in turn, is increasing the number of exams needing to be completed.

    Senator McCain. Thank you, Sheriff. I am going to do 
everything I can to make time to come and visit you.
    Welcome, Mr. Allen.

            STATEMENT OF ERNIE ALLEN, PRESIDENT/CEO,

          THE NATIONAL CENTER FOR MISSING & EXPLOITED

         CHILDREN (NCMEC); ACCOMPANIED BY JOHN SHEHAN,

              PROGRAM MANAGER, CyberTipline, NCMEC

    Mr. Allen. Thank you, Mr. Chairman, Senator Burns, Senator 
Pryor.
    In 1998 you in the Congress asked the National Center for 
Missing & Exploited Children to create a CyberTipline, a 9-1-1 
for the Internet regarding child sexual exploitation. Last week 
we handled our 417,000th report from the public, from Internet 
service providers. We are handling reports regarding online 
enticement of children for sexual acts, reports which have 
increased 150 percent in the past year. We are handling reports 
regarding child prostitution, child sex tourism.
    Senator Burns, you mentioned misleading domain names. Under 
the PROTECT Act, that is now a crime that is required to be 
reported to our CyberTipline. We are handling those reports.
    And of course we handle reports regarding child 
pornography. Our CyberTipline analysts view the images and 
content, triage the content, use a variety of search tools and 
techniques to try to identify who the distributor is, and then 
provide that information to the appropriate law enforcement 
agency for the investigative followup. FBI, ICE, the Postal 
Inspection Service, all assign agents and analysts who work out 
of our center, and we work closely with Mr. Finch and the 
Innocent Images National Initiative and the Cyber Crime 
Division at the FBI. We also work very closely with Sheriff 
Brown and the other Internet Crimes Against Children Task 
Forces across the country.
    Ten years ago we would have reported to you that child 
pornography had virtually disappeared. In 1982 the Supreme 
Court of the United States said that child pornography is not 
protected speech. As a result it disappeared from the shelves 
of adult bookstores. The Postal Inspection Service cracked down 
on its distribution through the mails and it had all but 
disappeared.
    Then came the Internet, and with the Internet it has 
exploded. I cite all the time one case generated by one lead to 
the CyberTipline that led, through the efforts of the Postal 
Inspection Service, other Federal law enforcement, and the 
Dallas Police Department, to a husband and wife pair of 
entrepreneurs in Texas who were not making enough money doing 
what they were doing, so they set up a child pornography 
website. When they were arrested by the Dallas Police, they had 
70,000 customers paying $29.95 a month and using their credit 
cards to access graphic images of small children being raped 
and sexually assaulted. That is one website.
    We are making progress. Law enforcement----
    Senator McCain. How long had they been in operation?
    Mr. Allen. I do not remember. I think at least a couple of 
years.
    Law enforcement is doing heroic work in this area. The 
Attorney General has made it a national priority. The private 
sector is involved and engaged. Six months ago we launched a 
new financial coalition against child pornography with the goal 
of eradicating commercial child pornography by 2008. Twenty-
three companies are now involved, including industry leaders 
like Mastercard, Visa, American Express, Bank of America, 
Citigroup, Internet industry leaders.
    The whole premise of this effort is that you cannot 
possibly arrest and prosecute everybody. So the mission is to 
follow the money, stop the payments, shut down the accounts, 
and put an end to this insidious multibillion dollar global 
enterprise.
    We are also attacking this problem through a new technology 
coalition, and, Mr. Chairman, I regret that technology 
companies did not accept your invitation. Six Internet industry 
leaders, AOL, Microsoft, Yahoo!, Google, EarthLink, and United 
Online, came to us at the center and said: We want to work with 
you to develop technology solutions to this problem, to do a 
better job of identifying, intercepting, interdicting the 
content.
    One of the real challenges here is keeping up with the 
continually evolving and changing technology. For example, 
there are now indications that child pornography is moving into 
the wireless world. We are seeing it in Europe. We have already 
seen it in this country. We are now working with the Federal 
Communications Commission in an attempt to more effectively 
address this problem.
    Well, what more can we do? Sheriff Brown mentioned a number 
of key steps and let me elaborate on a couple of them. In 1998, 
Congress mandated that Internet service providers report 
suspected child pornography on their sites to law enforcement 
via the National Center for Missing & Exploited Children and 
its CyberTipline. The good news is that today 255 companies are 
now actively reporting, including the major players in the 
industry--AOL, Microsoft, Yahoo!, Google, and many others.
    The bad news is that many more do not. There is great 
concern among these companies about the lack of clarity in the 
law regarding the reporting process. There is concern about 
statutory protection for distributing images. If they are going 
to report the content they need to send us the images. The 
concern is when they do that they violate the law.
    Recently we and the Child Exploitation and Obscenity 
Section at the Justice Department worked with the U.S. Internet 
Service Provider Association to develop a set of best practices 
reporting guidelines to help address this problem, and U.S. 
ISPA is helping us recruit additional ISPs to report. But every 
ISP, every Internet service provider, needs to be reporting 
this content in a timely way, involving the dissemination of 
images, so that we can put these images for investigative 
purposes into the hands of Blue Ridge Thunder and the FBI and 
the other agencies that are out there.
    In addition, in many cases because we do not get mandated 
customer information, we are not able to identify the 
appropriate jurisdiction for investigative follow-up and we are 
not authorized to send these leads to non-U.S. law enforcement. 
A major Internet service provider currently has been grappling 
with the challenge regarding concerns about content on 
customers' accounts in Brazil and would like to develop a 
mechanism so that we can put that content and these reports 
into the hands of Brazilian law enforcement.
    Another matter that Sheriff Brown mentioned that I will not 
elaborate on is data retention. Once our CyberTipline analysts 
give law enforcement all the information they need about 
specific images traded on the Internet, there can be no 
prosecution until the date and time of that online activity is 
connected to an actual person. There is currently no 
requirement for Internet service providers to retain 
connectivity logs for their customers on an ongoing basis. The 
Attorney General, the Justice Department, has been meeting with 
the industry. Some of these companies have policies on 
retention, but they vary widely and are not implemented 
consistently and, frankly, most are too short to have 
meaningful prosecutorial value.
    Mr. Chairman, we believe that because of the remarkable 
effort of law enforcement at all levels, federal, state, local, 
and international, we are doing more about this problem than 
ever before. But our message to you is that we have only just 
begun.
    Mr. Chairman, your staff asked if we could do a very brief 
demonstration of how the CyberTipline works. So with your 
permission, John Shehan, who manages the CyberTipline for us, 
will give you a brief demo.
    [The prepared statement of Mr. Allen follows:]

 Prepared Statement of Ernie Allen, President/CEO, The National Center 
 for Missing & Exploited Children (NCMEC); Accompanied by John Shehan, 
                  Program Manager, CyberTipline, NCMEC
    Mr. Chairman and distinguished members of the Committee, I welcome 
this opportunity to appear before you to discuss crimes against 
children on the Internet. Chairman Stevens, you are a tireless advocate 
for child protection and I commend you and your colleagues for your 
leadership and initiative. The National Center for Missing & Exploited 
Children (NCMEC) joins you in your concern for the safety of the most 
vulnerable members of our society and thanks you for bringing attention 
to this serious problem facing America's communities.
    Let me first provide you with some background information about the 
National Center for Missing & Exploited Children (NCMEC). NCMEC is a 
not-for-profit corporation, mandated by Congress and working in 
partnership with the U.S. Department of Justice as the national 
resource center and clearinghouse on missing and exploited children. 
NCMEC is a true public-private partnership, funded in part by Congress 
and in part by the private sector. Our Federal funding supports 
specific operational functions mandated by Congress, including a 
national 24-hour toll-free hotline; a distribution system for missing-
child photos; a system of case management and technical assistance to 
law enforcement and families; training programs for Federal, state and 
local law enforcement; and our programs designed to help stop the 
sexual exploitation of children.
    These programs include the CyberTipline, the ``9-1-1 for the 
Internet,'' which serves as the national clearinghouse for 
investigative leads and tips regarding crimes against children on the 
Internet. The Internet has become a primary tool to victimize children 
today, due to its widespread use and the relative anonymity that it 
offers child predators. Our CyberTipline is operated in partnership 
with the Federal Bureau of Investigation (FBI), the Department of 
Homeland Security's Bureau of Immigration and Customs Enforcement 
(ICE), the U.S. Postal Inspection Service, the U.S. Secret Service, the 
U.S. Department of Justice's Child Exploitation and Obscenity Section 
and the Internet Crimes Against Children Task Forces, as well as state 
and local law enforcement. Leads are received in seven categories of 
crimes:

  <bullet> possession, manufacture and distribution of child 
        pornography;
  <bullet> online enticement of children for sexual acts;
  <bullet> child prostitution;
  <bullet> child-sex tourism;
  <bullet> child sexual molestation (not in the family);
  <bullet> unsolicited obscene material sent to a child; and
  <bullet> misleading domain names.

    These leads are reviewed by NCMEC analysts, who visit the reported 
sites, examine and evaluate the content, use search tools to try to 
identify perpetrators, and provide all lead information to the 
appropriate law enforcement agency. The FBI, ICE and Postal Inspection 
Service have ``real time'' access to the leads, and all three agencies 
assign agents and analysts to work directly out of NCMEC and review the 
reports. The results: in the 8 years since the CyberTipline began 
operation, NCMEC has received and processed more than 417,000 leads, 
resulting in hundreds of arrests and successful prosecutions.
    However, despite this progress the use of the Internet to victimize 
children continues to present challenges that require constant 
reassessment of our tools and methods. As technology evolves, so does 
the creativity of the predator. New innovations such as webcams and 
social networking sites are increasing the vulnerability of our 
children when they use the Internet. New technology to access the 
Internet is used by those who profit from the predominantly online 
market in child pornography and seek to evade detection by law 
enforcement.
    Today, NCMEC is working with leaders in many industries involved 
with the Internet in order to explore improvements, new approaches and 
better ways to attack the problems. We are also bringing together key 
business, law enforcement, child advocacy, governmental and other 
interests and leaders to explore ways to more effectively address these 
new issues and challenges.
    In June six Internet industry leaders, AOL, Yahoo!, Google, 
Microsoft, EarthLink and United Online, initiated a Technology 
Coalition to work with us to develop and deploy technology solutions 
that disrupt the ability of predators to use the Internet to exploit 
children or traffic in child pornography. The Technology Coalition has 
four principal objectives:

        1. Developing and implementing technology solutions;

        2. Improving knowledge sharing among industry;

        3. Improving law enforcement tools; and

        4. Research perpetrators' technologies to enhance industry 
        efforts.

    Bringing together the collective experience, knowledge and 
expertise of the members of this Coalition, and applying it to the 
problem of child sexual exploitation, is a significant step toward a 
safer world for our children.
    This past June, NCMEC hosted a Dialogue on Social Networking Sites 
here in Washington, D.C. We did this to respond to the increased 
attention to these hugely popular sites that permit users to create 
online profiles containing detailed and highly personal information, 
which can be used by child predators to forge a ``cyber-relationship'' 
that can lead to a child being victimized. This vigorous and 
informative discussion brought together leaders from the technology 
industry, policymakers, law enforcement, academia and children's 
advocacy groups. We learned a lot about why children are drawn to these 
sites, the technological capabilities and limitations of the site 
operators who are concerned about the safety of their users, and how 
law enforcement sees these sites as both a danger to kids and a useful 
source of information in investigating cases. NCMEC is continuing to 
work with several social networking sites on ways to make children less 
vulnerable.
    Another challenge is the widespread use of the webcam, which offers 
the exciting ability to see the person you're communicating with over 
the Internet. While this has many benefits, such as allowing divorced 
parents to have ``online visitation'' with their children in distant 
states, it, too, can be used to exploit children. The reports to our 
CyberTipline include incidents involving children and webcams. Many 
children are victimized inadvertently, by appearing on their webcams 
without clothes as a joke, or on a dare from friends, unaware that 
these images may end up in a global commercial child pornography 
enterprise. Other children are victims of blackmail, threatened with 
disclosure to friends and family if his or her ``performance'' before 
the webcam doesn't become more sexually explicit. Too much technology 
and too much privacy, at a sexually curious age, can lead to disastrous 
consequences.
    But the most under-recognized aspect of the Internet is how it is 
used to distribute child pornography. It is not an exaggeration to 
state that this is a crisis of global proportions.
    Following the Supreme Court's 1982 decision in Ferber v. New York, 
holding that child pornography was not protected speech, child 
pornography disappeared from the shelves of adult bookstores. The U.S. 
Customs Service launched an aggressive effort to intercept it as it 
entered the country and the U.S. Postal Inspection Service cracked down 
on its distribution through the mails. However, child pornography did 
not disappear, it went underground.
    That lasted until the advent of the Internet, when those for whom 
child pornography was a way-of-life suddenly had a vehicle for 
networking, trading and communicating with like-minded individuals with 
virtual anonymity and little concern about apprehension. They could 
trade images and even abuse children ``live,'' while others watched via 
the Internet.
    Then law enforcement began to catch up, and enforcement action came 
to the Internet. The FBI created its Innocent Images Task Force. The 
Customs Service expanded its activities through its Cyber Crimes 
Center. The Postal Inspection Service continued and enhanced its strong 
attack on child pornography. Congress created and funded the Internet 
Crimes Against Children Task Forces at the state and local levels 
across the country. There are currently forty-seven ICAC Task Forces 
and the recently-enacted Adam Walsh Act will create ten more. Child 
pornography prosecutions and convictions have increased.
    I want to commend the Attorney General for his aggressive steps 
against child pornography. His Project Safe Childhood brings additional 
resources to attacking this problem and demonstrates that protecting 
our children is a priority for the Department of Justice.
    But we should have no illusions about the impact of these 
initiatives on what has become a financially lucrative industry.
    The Internet has revolutionized the commercial markets for 
virtually every type of goods and services that can be sold. 
Unfortunately, this also includes goods and services that subsist on 
the victimization of children. In a recent case investigators 
identified 70,000 customers paying $29.95 per month by credit card for 
Internet access to graphic images of small children being sexually 
assaulted. In our experience, most of the consumers are here in the 
U.S., and we have found that of the 820 identified victims in NCMEC's 
Child Victim Identification Program, a startling number of these 
children are also here in the U.S.
    A recent report by McKinsey Worldwide estimated that today 
commercial child pornography is a multi-billion-dollar industry 
worldwide, fueled by the Internet. There is also strong evidence of 
increasing involvement by organized crime and extremist groups. Its 
victims are becoming younger. According to NCMEC data, 19 percent of 
identified offenders had images of children younger than 3 years old; 
39 percent had images of children younger than 6 years old; and 83 
percent had images of children younger than 12 years old. Reports to 
the CyberTipline include images of brutal sexual assaults of toddlers 
and even infants. These are images that no one here could previously 
even imagine. But they have become all-too-common in the new world of 
child pornography and child sexual exploitation. Children have become, 
simply put, a commodity in this insidious commercial enterprise.
    New technology has allowed this industry to stay one or two steps 
ahead of law enforcement. Many distributors of child pornography are 
using peer-to-peer file-sharing networks, which does not use a central 
server, thereby depriving law enforcement of an identifiable Internet 
Protocol (IP) address, which is key evidence in investigating and 
prosecuting these cases. When we receive these reports to the 
CyberTipline, it is almost impossible to identify the perpetrators 
responsible for trading the illegal files. The anonymity of recent 
peer-to-peer technology has allowed individuals who exploit children to 
trade images and movies featuring the sexual assault of children with 
very little fear of detection.
    Wireless access to the Internet permits predators to ``piggyback'' 
on others' wireless signals, trade images, and remain undetected by law 
enforcement because of the difficulty in locating the piggybacking 
activity, compounded by the increasing use of wireless access cards 
manufactured overseas which use radio channels not authorized by the 
Federal Communications Commission. Wireless technology has also enabled 
the trading of these images via cell phone--making the operation of 
this enterprise not only mobile, but also able to fit inside a pocket 
and easily discarded to avoid detection.
    Another obstacle to overcome is the reporting of child pornography 
found on customers' accounts by electronic service providers (ESP) to 
NCMEC. Though apparently mandated by Federal statute, 42 U.S.C. 
Sec. 13032, not all ESPs are reporting and those that do report are not 
sending uniform types of information, rendering some reports useless. 
Some ESPs take the position that the statute is not a clear mandate and 
that it exposes them to possible criminal prosecution for distributing 
child pornography themselves. In addition, because are no guidelines 
for the contents of these reports some ESPs do not send customer 
information that allows NCMEC to identify a law enforcement 
jurisdiction. So potentially valuable investigative leads are left to 
sit in the CyberTipline database with no action taken. Together with 
the U.S. Internet Service Providers Association (USISPA) we developed 
``best practices'' reporting guidelines to address this problem. The 
major ESPs are following these guidelines--for example, AOL, Microsoft, 
and Yahoo!. However, these are voluntary rather than mandatory, so 
there is no enforcement mechanism for those who choose not to follow 
them.
    This reporting statute also constrains NCMEC in that it permits us 
to forward the CyberTipline leads only to U.S. law enforcement. This is 
a real problem, considering the global nature of the Internet. As an 
example, there is a portion of one major ESP system based in the U.S. 
that is used primarily in Brazil. This ESP wants us to send information 
about child pornography they find on their customers' accounts to 
Brazilian law enforcement. But we are prohibited from doing so.
    There is also another necessary yet missing link in the chain from 
detection of child pornography to conviction of the distributor. Once 
the CyberTipline analysts give law enforcement all the information they 
need about specific images traded on the Internet, there can be no 
prosecution until the date and time of that online activity is 
connected to an actual person. There is currently no requirement for 
ESPs to retain connectivity logs for their customers on an ongoing 
basis. Some have policies on retention but these vary, are not 
implemented consistently, and are for too short a time to have 
meaningful prosecutorial value. One example: law enforcement discovered 
a movie depicting the rape of a toddler that was traded online. In 
hopes that they could find the child by finding the producer of the 
movie, they moved quickly to identify the ESP and subpoenaed the name 
and address of the customer who had used that particular IP address at 
the specific date and time. The ESP was not able to provide the 
connectivity information. To this day, we have no idea who or where 
that child is--but we suspect she is still living with her abuser.
    We think this is just not acceptable.
    One of our new initiatives treats this industry like the business 
that it is. Our goal: to eradicate commercial child pornography by 
2008. Our mission: to follow the money. This new initiative is the 
Financial Coalition Against Child Pornography.
    First, we will aggressively seek to identify illegal child 
pornography sites with method of payment information attached. Then we 
will work with the credit card industry to identify the merchant bank. 
Then we will stop the flow of funds to these sites. The Coalition is 
made up of major financial and Internet companies, including 
MasterCard, Visa, American Express, Bank of America, Citibank, 
Microsoft, America Online, Yahoo! and many others. We are working to 
bring new members into the Coalition every day, especially 
international financial institutions.
    The first priority in this initiative is criminal prosecution, 
through referrals to Federal, state, local or international law 
enforcement in each case. However, our fundamental premise is that it 
is impossible to arrest and prosecute everybody. Thus, our goal is 
twofold:

        1. To increase the risk of running a child pornography 
        enterprise; and

        2. To eliminate the profitability.

    NCMEC is working hand-in-hand with both law enforcement and 
industry leaders to explore the best techniques for detection and 
eradication, and serves as the global clearinghouse for this effort, 
sharing information in a truly collaborative way.
    Mr. Chairman, I don't come before you today with a quick, easy 
solution to the problem of child sexual exploitation, but I can state 
unequivocally that the advent of the Internet has provided predators 
with the means to both entice children into sexual acts and sustain a 
lucrative commercial enterprise that demands the heinous victimization 
of children. We suspect that the problem of child pornography will 
continue to increase as distributors search for lower risk avenues with 
a lower possibility of being detected. Federal, state and local law 
enforcement are more aggressive than ever before, but they must 
overcome significant barriers. I hope that you can help us remove some 
of those barriers and help us identify and prosecute those who are 
misusing the Internet for insidious, criminal purposes. Too many child 
pornographers feel that they have found a sanctuary, a place where 
there is virtually no risk of identification or apprehension.
    NCMEC urges lawmakers, law enforcement and the public to take a 
serious look at the dangers threatening our children today, and to move 
decisively to minimize the risks posed by those who exploit new 
technology and target our children.
    Now is the time to act.
    Thank you.

    [Slides.]
    Mr. Shehan. Good afternoon. As introduced, I am John Shehan 
and I am the CyberTipline Program Manager. The CyberTipline was 
launched in March 1998 through the Congressional mandate to 
receive reports regarding child sexual exploitation. You will 
see that catchy slogan, ``The 9-1-1 of the Internet.'' It is 
because before the CyberTipline there was not a central 
location where individuals anywhere in the world could report 
these child sexual exploitation cases.
    This is our main report form. Ernie went through the 
different types of reports that we receive. To date we have had 
over 417,000 leads, 90 percent of those regarding child 
pornography. The next highest number is regarding the online 
enticement of children for sexual acts. As Ernie indicated, we 
have seen a 156 percent increase in the total number of reports 
compared to last year. We also deal with child molestation, 
child sexual trafficking, prostitution, et cetera.
    What I would like to do is go straight into the success of 
the CyberTipline. We had one case that came in earlier this 
year. It was through an electronic service provider, in 
compliance with 42 United States Code 13032, which requires 
those electronic service providers to report incidents of child 
pornography that they are aware of on their systems to the 
CyberTipline.
    In this particular situation, they uploaded content that 
was posted by a particular e-mail address. You will see there 
it is bigdaddyisaac. Our analysts verified that it was illegal 
content. Our next step is to find a jurisdiction. We want to 
find out where this individual is. What our staff do is we go 
out online. We do a variety of different open source searching. 
You would be surprised at the number of individuals that are 
trying to sell their car or posting messages to their favorite 
band site and they are also using that e-mail account to post 
images of child pornography.
    In this particular case, we found that same e-mail address 
was making a posting to a child modeling site. He was giving 
that child incentive and kudos, what some argue is a grooming 
process. We also found a posting he had made where he indicated 
a possible location of Oregon.
    Another profile gave a possible city within Oregon, also 
made comments that it is not about what you do in life, it is 
that you make a difference in the life of a child. We found a 
photo of this individual online.
    All of our steps that our analysts do we document so law 
enforcement can follow those steps. We save all of the material 
we find online and provide that to law enforcement for 
investigation. Our analysts have access to public database 
searches. This is a free resource we provide for law 
enforcement.
    In this particular situation, we want to verify this 
individual that we found in the cyber world really exists in 
the real world. Sure enough, he does. We had a match. Not only 
did we have a match, we found a possible place of employment as 
a school. So now the red flag is really up there.
    We forwarded this information on to the Oregon Internet 
Crimes Against Children Task Force. Oregon and 74 other 
agencies have a direct-secure-encrypted access into the 
CyberTipline. We can send that information, this data, these 
tips, in real-time to these agencies.
    As you will see on the screen, tens of thousands of images 
of child pornography were found when law enforcement kicked the 
door in. He admits to molesting children and he was working as 
a librarian and a school bus driver. He pled guilty and 
received 15 years incarceration.
    You will see there, that is a tattoo on his shoulder. In 
his own words he indicated those tattoos serve as a warning to 
him of his attraction to children. There is a demonist 
tattooist on his shoulder there that is about to tattoo that 
child, to remind him that every time a child is molested it 
marks that child for life. It may be difficult to see, but you 
will see a child in a cage in the upper part of the shoulder 
there.
    Shifting focus, that was the CyberTipline. The Exploited 
Child Unit has two major functions. One is to receive the 
reports. Our second is to identify the children that are in 
these images. First and foremost, we want to find these kids. 
The second part of that is to help the prosecutions. With the 
advent of technology and the Internet, you easily could claim 
that these are not real child, real children; they are morphed 
images online, et cetera. A case in point--we will move to that 
in just a moment.
    We know of 820 children that have been identified through 
these images. Over 5 million images have been processed through 
our child recognition identification system. That is a service 
that we provide to law enforcement to verify that the images, 
the content that they seize on those computers and PCs, are in 
fact real child victims. That 5 million images is from 2002 to 
date. That is quite a vast number of images.
    Senator McCain. Of those 820 that were identified, how many 
were you unable to identify?
    Mr. Shehan. There are still hundreds, if not thousands, of 
children out there to identify.
    Mr. Allen. Far more.
    Mr. Shehan. That is a primary focus, is, one, to find those 
children, get those into the category where law enforcement has 
verified their existence, and continue focusing on those that 
have not been identified.
    Senator McCain. And I would imagine that the pedophiles get 
more and more clever over time?
    Mr. Shehan. Absolutely, and make it more and more difficult 
for our team.
    A case in point. With these 800-plus children that have 
been identified, this is the relationship of the abuser to the 
child. Many have the perception that these children are being 
abducted off the streets and forced into these types of 
situations. Looking at the red, green, and the yellow, those 
are individuals parents, other relatives, or neighbors and 
family friends. Those are individuals that had legitimate 
access to these children.
    Senator McCain. So there must be cases where parents put 
their children online?
    Mr. Shehan. Absolutely.
    You will see a small percentage of the children are self-
producing, 5 percent; 10 percent through the online enticement. 
But the vast majority of these children, the perpetrators had 
legitimate access to them.
    Senator McCain. But that helps you track them down?
    Mr. Shehan. Somewhat, but they are still incredibly crafty 
with the grooming techniques and keeping the children from 
disclosing what is going on. We rely heavily on law enforcement 
during their investigations to follow up and see if there are 
child victims associated with these individuals possessing the 
content or trading the content.
    A case in point. Not only are we trying to help law 
enforcement to verify that these are child victims, but we are 
looking into all of these images. We are looking into 
background clues. ICE had sent us some evidence and asked us 
essentially to review, find out if there are identified 
children. Through that review we found images that we had never 
seen before, children that were being victimized that we had 
never seen. So we focused our attention.
    This particular image, you will see that the television 
there, there is a cup, there is a Big Gulp. It is not 
necessarily a Big Gulp, but it is a clue. Where is that cup 
being distributed? Not only that; in the bottom corner there 
you will see a grocery bag. Where are those stores? Our 
analysts focus on clues like that. We try and track it down, 
where are those locations, where in the world could those cups 
be. You see we now have an approximate jurisdiction. There are 
about five or six different States out of the entire world 
where that child could be.
    We continue our focus. Where is that brown bag? Where is 
that grocery store? It just so happens it is the same vicinity. 
So now we have an approximate jurisdiction.
    We are going to keep going through these images. We have a 
digital imaging specialist in the Exploited Child Unit at the 
National Center for Missing & Exploited Children. All he does 
all day long is trying to enhance and blow up images so we can 
find locations.
    A case in point is that little envelope there on the desk. 
We twist it, we blow it up; we found a Northstar Ministorage. 
Our analysts continued to do searches on this to find out where 
are those Ministorages, and it turns out in just one 
jurisdiction.
    We are then able to continue to look at clothes. We are 
looking at sockets, keyboards, calendars, anything that may be 
in the background of these images, to help us find a location. 
Clothes overall are only going to help with an area. They are 
not going to pinpoint the exact location, but it is a piece to 
the puzzle.
    This last image that you are looking at here, it is the 
child. She was being drugged by the perpetrator. Over the chair 
there is a brownie uniform. We were able to blow up that image; 
taking all the previous information, putting it all together, 
we were able to ascertain a location.
    Every one of these images that comes to the CyberTipline or 
the Child Victim Identification Program, any image that is 
taken with a digital camera contains metadata. Essentially it 
is information embedded in the image. We were able to tell law 
enforcement that those images were taken with an Olympus 
digital camera and we were able to ascertain the dates and 
times those images were taken. So when we do locate that child 
it will help to figure out who had access to that child during 
those points in time.
    We forwarded that information to the Immigration and 
Customs officers as well as the Internet Crimes Against 
Children Task Force. Investigation ensued and they found six 
victims to date. They were able to locate that child and, 
unfortunately, it was a grandfather, someone that had 
legitimate access to the child, and he has been found guilty. 
He is still in the sentencing stages, though.
    Those are just two of the programs that we are working, and 
I appreciate having the time to explain some of those to you.
    Senator McCain. Thank you very much. Certainly it is 
helpful.
    Our last witness is Dr. Sharon Cooper, who will join us 
now. Thank you, Dr. Cooper, and thank you for your patience, 
and please proceed.

          STATEMENT OF SHARON W. COOPER, M.D., ADJUNCT

         PROFESSOR OF PEDIATRICS, CHAPEL HILL SCHOOL OF

             MEDICINE, UNIVERSITY OF NORTH CAROLINA

    Dr. Cooper [appearing on the video monitor from a remote 
location].
    Dr. Cooper. Thank you very much, Mr. Chairman.
    I am very pleased to be able to appear before your 
Committee today and express my views regarding child 
victimization and pornography. I am a developmental and 
forensic pediatrician and I am the CEO of Developmental and 
Forensic Pediatrics, which is a consulting firm that provides 
management, care, research and training, and expert witness 
testimony in child maltreatment cases and the care of children 
with disabilities. I am an adjunct professor of pediatrics at 
the University of North Carolina at Chapel Hill, as well as an 
assistant professor of pediatrics at the Uniformed Services 
University of Health Sciences in Bethesda, Maryland.
    I am a retired Army officer, having serving 21 years in 
numerous U.S. military hospitals and having retired with the 
rank of colonel. And I am the lead author of the most 
comprehensive textbook that we have on the market at this 
particular time, a two-volume compendium entitled ``Medical, 
Legal and Social Science Aspects of Child Sexual Exploitation, 
a Comprehensive Review of Pornography, Prostitution, and 
Internet Crimes.''
    I have lectured on the subject of child sexual exploitation 
and particularly child pornography in nearly 100 conferences 
both in the United States and in foreign countries. I have been 
an instructor at the National Center for Missing & Exploited 
Children for 7 years now, training attorneys, judges, and 
investigators regarding all aspects of child sexual 
exploitation. I am also an instructor for the North Carolina 
Institute of Government, which provides judicial training in 
this area of child maltreatment.
    I am here, sir, to speak for victims--not emerging social 
norms, not Internet behaviors of children and youths or 
criminal justice statistics. I would like to bring to your 
attention some of the issues relevant to children victimized by 
sexual abuse with pornographic memorialization. Ten years ago, 
our texts on child sexual abuse did not even mention 
pornography production because it was so rarely reported in our 
literature that children were in underground magazines and 
videotapes. Today specialists who work in the area of child 
sexual abuse have had to learn how to ask the right questions 
about the possibility that a child's victimization may have 
entailed the production, dissemination, possession, or 
extortion through the use of child sexual abuse images.
    Our field of knowledge regarding this insult to injury, the 
injury being child sexual abuse and the insult being the child 
who is kept at a certain age and stage of development forever, 
is emerging. It is important to recognize that the majority of 
victims of sexual abuse do not disclose this in childhood.
    You should know that such maltreatment of children whose 
brains are still in a state of development has an actual 
negative neural architectural change and impact. Furthermore, 
research from the Kaiser Permanente system in California has 
confirmed that adverse childhood experiences such as child 
sexual abuse with pornography production has lifelong physical, 
reproductive, health risk behaviors and mental health impact.
    The increasing number of images on the Internet of children 
less than 6 years of age speaks volumes regarding the prurient 
nature of producers and collectors. Such images that I have 
reviewed and children in this age group of whom I have medical 
knowledge are often victims of sadistic, gross sexual assault 
and sodomy. Witnessing this degree of physical and certainly 
emotional damage would be heartbreaking. Possession of such 
images should lead to the stiffest penalty available within the 
letter of the law. In addition, offender research as well as 
Internet research reveals that sexual voyeurism online is a 
highly addictive pastime and the likelihood of recidivism is 
great, as well as a higher than presumed incidence of actual 
contact offenses in convicted collectors.
    I recently participated as one of only two Americans in an 
international expert working group on the subject of child 
victims of Internet pornography. This working group was held in 
Sweden and it was sponsored in part by Save the Children. The 
outcome of the meeting was the realization that our specialists 
need immense training in this form of victimization. The fact 
that these children do not typically tell of their abuse, but 
in fact will actually deny the presence of images, should not 
deter their necessary mental health support.
    Recent investigations of large international child sexual 
exploitation rings reveals that like-minded offenders, who are 
often intrafamilial, have little to no remorse regarding the 
trauma and harm to their own children and those of others. This 
is the only form, sir, of child abuse which almost always comes 
to law enforcement first, instead of to child protective 
services. Consequently, child welfare has had to learn about 
this problem second-hand, if they are called in at all. This is 
a form of child abuse which has had much more victim impact, 
because there is a very close link between exploitation through 
pornography and the gradual transition into prostitution. This 
background of having pictures and videos taken of one's sexual 
abuse is a significant risk for substance abuse, mental health 
problems, and run-away behaviors.
    What steps can Congress take to impact this problem of 
child pornography? I would recommend consideration of the CDC's 
approach for four components of prevention of the Child Sexual 
Exploitation Act: looking at the individual, looking at the 
family, looking at the community, and looking at society.
    For the individual child or youth, child sexual abuse 
prevention strategies as well as online and communication 
technology safety strategies should be mandated in the health 
classes of all public elementary, middle, and high schools, not 
in the computer classes. The latter is not always available to 
students, but health classes are usually a requirement, and 
education to prevent compliant victimization with webcams, 
social networking sites and online dating is a public health 
issue in America today. The Center for Disease Control's new 
Youth Dating Violence Prevention Initiative, called ``Choose 
Respect,'' should also be included as a mandated component of 
these health classes.
    A recommendation for family intervention in the prevention 
of child sexual exploitation would include mandates that 
federally-funded public libraries provide one-on-one tutoring 
and assistance for any person requesting instruction on how to 
implement parental controls on their home computers, as well as 
information regarding filtering, blocking, and tracking 
software. This information can be computer-based, but not 
necessarily web-based, and it should be on a free computer in 
the library.
    Another aspect of prevention of child pornography 
production would include cessation of the recurrent cycle of 
sexual offending. All child welfare agencies should maintain 
digital images of all children who are referred for 
investigation and abuse. This would allow a Congressionally-
funded secure link between an agency such as the National 
Center for Missing & Exploited Children and any child 
protective service unit in the country. When the CVIP analysts, 
as was spoken of before, are able to regionally focus their 
efforts to locate a child depicted pornographically on the 
Internet, such a federally-funded link might bring the search 
to closure if child sexual abuse has already been substantiated 
and the child is safe from harm.
    An example of how important child welfare and local law 
enforcement efforts are was noted just 3 weeks ago at one of 
the largest child abuse trainings in the United States, the 
Dallas Crimes Against Children's Conference. At the site, 
Attorney General Gonzales commended the new Victim 
Identification Laboratory sponsored by the National Center for 
Missing & Exploited Children and the Microsoft Corporation, 
which was an online lab of child pornography details open only 
to law enforcement and prosecutors.
    The very first day that the lab was open, an investigator 
identified a 5-year-old child whose mother's paramour had 
sexually abused her and who was already convicted and serving a 
prison sentence. On the one hand, this would be one more case 
for closure by CVIP, but on the other hand no one in the 
investigative or prosecutorial team knew that child pornography 
was also part of this 5-year-old child's victimization.
    Funding for child welfare agencies to provide education and 
support for non-offending family members would also begin to 
help in the area of cessation of recurrent sexual abuse. This 
funding would include an actual family counseling curriculum 
provision and, most importantly, training of potential members 
of the child maltreatment multidisciplinary team at their 
earliest entry into the field, the undergraduate level. 
Increased earmarked funding for undergraduate programs such as 
are found at the Winona State University in Minnesota and other 
public-funded colleges around the country would be appropriate 
to help those who are trying to learn social work, psychology, 
premed, political science, criminal justice, and computer 
science fields as they become part of that community prevention 
strategy.
    Congress should also encourage industry leaders to assist 
in public awareness campaigns regarding the plight of victims 
of child sexual abuse images. This would include information 
regarding good citizenship for bystander youths and warnings 
for youth offenders who bully online, commit sexual assaults 
and extort or exploit victims through cellular telephone camera 
technology and with peer-to-peer networking.
    Congress should also enhance judicial training for federal, 
state and military judges to negate a still pervasive thought 
that this is a just a victimless crime and that these are just 
pictures.
    Funding for programs which provide housing and education to 
marginalized youths who are being exploited is sorely needed 
and is quite relevant to this subject of child sexual abuse and 
child sexual abuse images because of Dr. Cathy Spatz Widom's 
research that revealed that children who have been sexually 
abused are 28 times more likely in their lives to be 
prostituted, to be arrested for prostitution.
    A recent study by ECPAT, End Child Pornography, 
Prostitution and Trafficking in Children for Sexual Purposes, 
revealed that children and youth internationally trafficked 
into the United States for prostitution purposes were receiving 
more support and assistance to escape prostitution than 
American children who had been trafficked from one side of our 
country to the other side of our country. Research funding, but 
particularly housing assistance through block grants to states, 
would be very helpful in this part of intervention for victims.
    Finally, sir, from a societal perspective of the prevention 
of child pornography victimization, Congress should strengthen 
the existing obscenity statutes as our country begins to 
struggle to diminish the sexualization of children in 
entertainment, media, fashion, advertising, books, and 
competitions. The normalization of sexual harm continues to be 
heavily promoted, leading to very negative messages and images, 
particularly of minority adolescent icons.
    The juxtaposition of sexuality and violence is not by 
coincidence and industry leaders must be held accountable. 
Recent successful Department of Justice actions against 
agencies which exploit youths without proof-of-age or who are 
clearly unable even to make and understand their informed 
consent rights are a wake-up call that we are beginning to get 
it. Obscenity and profanity are both seen and heard today in 
our public media and these constant images and messages are 
clearly affecting the sexual behaviors and beliefs of our 
children. Let us work together outside the box to assist in 
keeping youths from committing Federal offenses by being self-
exploitive just because degrading lyrics say it is the right 
thing to do.
    I very much would like to thank you, Senator McCain, for 
this opportunity to appear before you and to express my 
concerns and hope that this will be helpful to your thought 
process.
    [The prepared statement of Dr. Cooper follows:]

  Prepared Statement of Sharon W. Cooper, M.D., Adjunct Professor of 
    Pediatrics, Chapel Hill School of Medicine, University of North 
                                Carolina
    Mr. Chairman and distinguished members of the Committee, I am 
pleased to appear before your Committee today and express my views 
regarding child victimization through pornography. My name is Sharon W. 
Cooper, M.D., and I am a Developmental and Forensic Pediatrician. I am 
the CEO of Developmental & Forensic Pediatrics, PA a consulting firm 
which provides medical care, research and training, and expert witness 
testimony for children with disabilities and/or who are victims of all 
forms of child abuse and neglect. I am an adjunct professor of 
Pediatrics at the University of North Carolina Chapel Hill School of 
Medicine and an assistant professor of Pediatrics at the Uniformed 
Services University of the Health Sciences in Bethesda, Maryland. I am 
a retired Army officer, having served for 21 years in numerous military 
hospitals here in the U.S. and overseas, and achieving the final rank 
of colonel. I am the lead author of the most comprehensive textbook on 
child sexual exploitation, a 2-volume compendium entitled: The Medical, 
Legal and Social Science Aspects of Child Sexual Exploitation A 
Comprehensive Review of Pornography, Prostitution, and Internet Crimes 
(published in 2005). I have lectured on the subject of child sexual 
exploitation and particularly child pornography in nearly 100 
conferences in the U.S. and numerous foreign countries. I have been an 
instructor at the National Center for Missing & Exploited Children for 
7 years training attorneys, judges, and investigators regarding all 
aspects of child sexual exploitation. I am an instructor for the North 
Carolina Institute of Government which provides judicial training in of 
child maltreatment.
    I am here to speak of victims--not emerging social norms, Internet 
behaviors of children and youths or criminal justice statistics. I 
would like to bring to your attention some of the issues relevant to 
children victimized by sexual abuse with pornographic memorialization. 
Ten years ago, our texts on child sexual abuse didn't even mention 
pornography production because it was so rarely reported that our 
children were in underground magazines or videotapes. Today, 
specialists in the evaluation of child sexual abuse have to learn how 
to ask the right questions about the possibility that a child's 
victimization may have entailed production, dissemination, possession 
or extortion through the use of child sexual abuse images. Our field of 
knowledge regarding this insult to injury--the injury being sexual 
abuse and the insult, keeping a child forever at a certain age and 
stage of development while being exploited through images, is emerging. 
It is important to recognize that the majority of victims of sexual 
abuse do not disclose in childhood. You should know that such 
maltreatment of children whose brains are still in a state of 
development has an actual negative neural architectural impact. 
Furthermore, research from the Kaiser Permanente system in California 
has confirmed that adverse childhood experiences such as sexual abuse 
with pornography production has lifelong negative physical, 
reproductive, health risk behaviors (smoking, drinking, drugs, obesity, 
etc.) and mental health impact.
    The increasing number of images on the Internet of children less 
than 6 years of age speaks volumes regarding the prurient nature of 
producers and collectors. Such images that I have reviewed and children 
in this age group of whom I have medical knowledge, are often victims 
of sadistic, gross sexual assault and sodomy. Witnessing the degree of 
physical and certainly emotional damage that such children experience 
in the videoclips now present on the Internet would break your heart. 
Possession of such images should lead to the stiffest penalty available 
within the letter of the law. In addition, offender research as well as 
Internet research reveals that sexual voyeurism online is a highly 
addictive pastime and the likelihood of recidivism is great, as well as 
certainly a higher than presumed incidence of actual contact offenses 
in convicted collectors.
    I recently participated as one of only 2 Americans on an 
international expert working group on the subject of child victims of 
Internet pornography. This working group was held in Sweden and 
sponsored in part by Save the Children. The outcome of the meeting was 
the realization that our specialists need immense training in this form 
of victimization--the fact that these children not only typically do 
not tell of their abuse, but will in fact, deny the presence of images 
must not be a deterrent to necessary mental health support. Recent 
investigations of large international child sexual exploitation rings, 
reveals that like-minded offenders who are often intrafamilial have 
little to no remorse regarding the trauma and harm to their own 
children and those of others. This is the only form of child abuse 
which almost always comes to the attention of law enforcement first, 
instead of child protective services. Consequently, child welfare has 
had to learn about this problem second-hand, if they are called at all. 
This is a form of child abuse which has much more victim impact, 
because of the close link between exploitation through pornography and 
the gradual transition into prostitution. This background of having 
pictures and videos taken of one's sexual abuse is a significant risk 
for substance abuse, mental health problems, and run-away behaviors.
    What steps can Congress take to impact this problem of child 
pornography? Consider an approach to each of the 4 components of the 
prevention of child abuse: the individual child or youth, the family, 
the community and society. For the individual child or youth, child 
sexual abuse prevention strategies as well as online and communication 
technology safety strategies should be mandated in the health classes 
of public elementary, middle and high school students (not computer 
classes). The latter are not always available to all students, but 
health is usually a requirement and education to prevent compliant 
victimization with webcams, social networking sites and online dating 
is a public health issue in America today.
    A recommendation for family intervention in the prevention of child 
sexual exploitation would include mandates that federally-funded public 
libraries provide one-on-one tutoring and assistance for any person 
requesting instruction on how to implement parental controls on their 
home computers, as well as information regarding filtering, blocking, 
and tracking software. This information can be computer-based but not 
necessarily web-based and should be on a free computer. Another aspect 
of prevention of child pornography production would include cessation 
of the recurrent cycle of sexual offending. All child welfare agencies 
should maintain digital images of all children who are referred for 
investigation and abuse. This would allow a congressionally funded 
secure link between an agency such as the National Center for Missing & 
Exploited Children and any child protective service unit in the 
country. When the Child Victims of Internet Pornography (CVIP) analysts 
are able to regionally focus their efforts to locate a child depicted 
pornographically on the Internet, such a federally-funded link might 
bring the search to closure if child sexual abuse has already been 
substantiated and the child is safe from harm. An example of how 
important child welfare and local law enforcement efforts are was noted 
just 3 weeks ago at one of the largest child abuse trainings in the 
U.S., the Dallas Crimes against Children's Conference. At the site, 
Attorney General Gonzales commended the new Victim Identification 
Laboratory which was an online lab of child pornography details open 
only to law enforcement and prosecutors to see if anyone recognized 
unknown victims. The very first day that the lab was open, an 
investigator identified a 5 year old child whose mother's paramour had 
sexually abused her and who was already convicted and serving a prison 
sentence. On the one hand, this would be one more case for closure by 
CVIP, but on the other hand, no one in the investigative and 
prosecutorial team knew that child pornography was also part of this 5-
year-old's victimization.
    Funding for child welfare agencies to provide education and support 
for nonoffending family members would also begin to help in the area of 
cessation of recurrent sexual abuse. This funding would include an 
actual family counseling curriculum provision, and most importantly, 
training of potential members of the child maltreatment 
multidisciplinary team at their earliest entry into the field--the 
undergraduate level. Increased earmarked funding for Winona State 
University in Minnesota and other public-funded colleges around the 
country which are trying to incorporate child maltreatment education to 
students in social work, psychology, premed, political science, 
criminal justice and the computer science fields all of whom are 
potential team members in child abuse.
    Congress should encourage industry leaders to assist in public 
awareness campaigns re: the plight of victims of child sexual abuse 
images. This would include information regarding good citizenship for 
bystander youths and warnings for youth offenders, who bully online, 
commit sexual assaults and extort or exploit victims though cellular 
phone camera technology and peer-to-peer networking. Congress should 
also enhance judicial training for Federal, state and military judges 
to negate a still pervasive thought that this is a ``victimless'' crime 
and these are ``just pictures.''
    Funding for programs which provide housing and education to 
marginalized youths who are being exploited through prostitution is 
sorely needed and is quite relevant to child sexual abuse and its 
associated images because of Dr. Cathy Spatz Widom's research that 
revealed that victims of child sexual abuse were 28 times more likely 
in their lives to be arrested for prostitution. A recent study by 
ECPAT, USA (End Child Prostitution, Child Pornography and Trafficking 
of Children for Sexual Purposes') revealed that children and youth 
internationally trafficked into the U.S. were receiving more support 
and assistance to escape prostitution, then American children who had 
been trafficked from one side of our country to another. Research 
funding but particularly housing assistance through block grants to 
states would be very useful in this part of intervention of victims.
    Finally, from a societal perspective of the prevention of child 
pornography victimization, Congress should strengthen the existing 
obscenity statutes as our country begins the struggle to diminish the 
sexualization of children in entertainment, media, fashion, 
advertising, books, and competitions. The normalization of sexual harm 
continues to be heavily promoted leading to very negative messages and 
images, particularly of minority adolescent icons. The juxtaposition of 
sexuality and violence is not by coincidence and industry leaders must 
be held accountable. Recent successful civil suits against agencies 
which exploit youths without proof-of-age or who are clearly unable 
even to understand their informed consent rights, are a wake-up call 
that we are beginning to get it. Obscenity and profanity are both seen 
and heard today, and these constant images and messages are clearly 
affecting the sexual behaviors and beliefs of our children. Let's work 
together outside the box to assist in keeping youths from committing 
Federal offenses by becoming self-exploitive, just because degrading 
lyrics say it's the right thing to do.
    I would like to thank Chairman McCain for this opportunity to 
appear before you today express my concerns.

    Senator McCain. Thank you very much, Dr. Cooper.
    I will ask the other witnesses, but we will try to see if 
there are any questions for you so that you can return to your 
duties.
    Since the legislation was passed in 1998, which is very 
important, has the problem gotten better or worse?
    Dr. Cooper. The problem of child pornography, sir?
    Senator McCain. Yes.
    Dr. Cooper. Child pornography has gotten worse. It has 
definitely gotten worse. It is worse in two ways. In one sense 
it is worse because we have more people who understand that 
they can take pictures of children, and now people are showing, 
offenders, are showing young children child pornographic images 
in order to help them recognize and accept what the offender 
wants to do to them. So the ease of access of child pornography 
images on the Internet is used more and more to groom young 
children.
    The other point, sir, is that as I evaluate more child 
victims of sexual abuse, what the children tell me in their 
histories are now things that I have seen on the Internet in 
child pornographic images, which lets me know that that second 
reason for collection of child pornographic images, that is as 
a plan for action, is certainly being put into place.
    Senator McCain. So one of the worst aspects is this 
continued attempt to normalize sexual harm?
    Dr. Cooper. That is correct, sir. When we see sexualized 
images of very young children in media, this leads children to 
accept themselves as a sexual being, which makes it easier for 
them, unfortunately, to be victimized, and it is very important 
for us to recognize this slippery slope.
    Senator McCain. Do any other Senators have questions for 
Dr. Cooper, so we can let her go after you question her? 
Senator Burns, Senator Ensign?
    [No response.]
    Senator McCain. Thank you very much, Dr. Cooper, and we 
appreciate very much your input. Thank you for all you do. We 
are very grateful.
    Dr. Cooper. Thank you, sir.
    Senator McCain. I guess I would--and you can turn that.
    Just real quick for the other witnesses, do you agree with 
Dr. Cooper that since 1998 the situation of child pornography 
has worsened in the United States? We will begin with you Ms. 
Fisher.
    Ms. Fisher. Yes, Senator.
    Senator McCain. Mr. Finch?
    Mr. Finch. Most definitely, Senator.
    Senator McCain. Sheriff?
    Mr. Brown. Absolutely. We are seeing a tremendous upsurge.
    Senator McCain. Mr. Allen?
    Mr. Allen. Absolutely, much of it driven by improvements in 
technology--high-speed, broadband distribution, instant ability 
to access and distribute.
    Senator McCain. So obviously along with your 
recommendations, and there have been some very good 
recommendations, we need to do more, all of us, Congress, the 
various organizations at all levels; is that a correct 
assessment?
    Mr. Allen. It is certainly mine, sir.
    Senator McCain. Ms. Fisher, I did have one question. Has 
the Department issued regulations setting forth what data 
should be transmitted to NCMEC through the CyberTipline and is 
that a problem?
    Ms. Fisher. There are no specific regulations. What we have 
been doing, as Mr. Allen mentioned in his testimony this 
morning, is working with NCMEC and with the ISPs on a protocol 
and best practices about what should be transmitted. We have 
seen a marked increase on the reports that are being brought 
in, but it is not 100 percent reporting and we need to do 
better and we need to continue to work with NCMEC and the ISPs 
to get this right.
    Senator McCain. Is that a pretty accurate description, Mr. 
Allen?
    Mr. Allen. Absolutely. Clearly, in the best of all worlds 
if the statute is flawed our view is we should fix the statute. 
But the goal--and we applaud the leadership of the Justice 
Department and are grateful for it and we are making progress, 
but until every electronic service provider in this country is 
reporting there is a hole in the system.
    Senator McCain. So what do we need to do?
    Mr. Allen. Well, I think we need to keep doing what we are 
doing. I also think that it is appropriate----
    Senator McCain. Would you like some more regulations from 
the Department of Justice?
    Mr. Allen. I think that would be a good thing.
    Senator McCain. Good.
    Ms. Fisher. Well, we will work with you on it.
    Mr. Allen. OK.
    Senator McCain. Good.
    Mr. Allen, is it just--you mentioned technology. Is it also 
a problem--and maybe, Sheriff Brown, you can help us--with the 
internationalization of this situation, that it crosses 
continents and international borders? That it would seem to me 
would make your effort of identifying these people almost 
impossible.
    Mr. Allen. Senator, it is very difficult. The good news is, 
as Mr. Finch mentioned, there is now a international 
coordinated law enforcement process. Interpol and others are 
doing much more in this area. But one of the great challenges, 
through our international center we just finished a review of 
the law in the 184 member countries of Interpol looking at five 
key categories of law on child pornography. 95 member countries 
of Interpol have no law at all. Child pornography is not even a 
crime. In 138 countries that are Interpol members, the 
possession of child pornography is not a crime.
    So while there have been extraordinary efforts under way in 
Western Europe, in Australia and Canada and the United States 
and a number of other places, one of the key challenges is to 
make the world aware of the extent of this problem and the fact 
that this is truly a global phenomenon and at least develop a 
consistent uniform platform of law so that we can enforce these 
crimes wherever in the world they happen.
    Senator McCain. Sheriff Brown?
    Mr. Brown. I could not add any more to what Mr. Allen has 
said. I know that we are seeing that we are a small task force. 
We are sort of at the lower end of the food chain in these task 
forces. But even I can see when we are looking at these images 
and we are seeing hundreds and hundreds and hundreds and we can 
tell even without sending them for examination that a lot of 
them are coming out of Europe, a lot of them are coming out of 
the Eastern Bloc countries. We can see in the background some 
of them, as John showed you the way they enlarge the 
photographs and identify things, we are even seeing that. So we 
are seeing a lot of images coming internationally, coming from 
overseas, I mean a tremendous amount.
    Senator McCain. Mr. Finch?
    Mr. Finch. Senator, the electronic media or the Internet 
has posed a challenge when it comes to addressing these matters 
internationally. However, with the task force we are now seeing 
progress in terms of getting at the criminal in other 
countries. These officers come here, they stay for 6 months, 
they train, they go back to their country; they have a better 
understanding of what we are doing. The countries we have 
worked with have been most cooperative and they have removed a 
lot of the impediments or road blocks to getting the predators 
in other countries.
    So we are making progress, but, as Mr. Allen stated, there 
are countries that have no laws.
    Senator McCain. So, Ms. Fisher, do you think that we need 
more international agreements on this issue?
    Ms. Fisher. Well, we absolutely need to work on this on an 
international basis. Congress ratified the Cyber Crime 
Convention that is going to help in this regard with the 
signatory countries making sure that they have laws. But we 
need to continue to train. We see credit card processors 
offshore. We had a case where the money was going to Latvia and 
the processor was in Belarus. We need to continue to get 
cooperation and we need to continue to get them to increase 
their laws.
    Senator McCain. Senator Burns.
    Senator Burns. Thank you, Mr. Chairman. The point is follow 
the money.
    Mr. Finch, I want to congratulate you and the FBI. I have 
had the opportunity to go into an office in Montana and set an 
evening with agents there and watch them go into those chat 
rooms and to finally identify some of those predators and then 
figure out ways to lure them out and get them. They go through 
a lot of training.
    I will tell you that one agent was using his daughter, his 
own daughter, as a model in that. I do not know if you ever had 
that opportunity, Senator. It is like, Sheriff Brown if I was 
down in Lynchburg I would come down and set with you an 
evening, because, I tell you what, it takes a lot of training, 
it takes a lot of patience, and it is not nice work. It is not 
nice work at all.
    But I want to congratulate you and the agents you have in 
each one of these States. I know in every State they are there.
    It just sounds to me, no matter what kind of a law we pass 
it still boils down to how do we get down on the ground and 
take care of people who have, I think, very serious mental 
problems. These folks are sick. And how we seek them out--and 
no matter what kind of law we pass, it does not seem to even 
make a dent in the problem that we are facing.
    Do you get that same kind of a feeling?
    Mr. Allen. Absolutely.
    Senator Burns. It just takes a lot, a neighborhood I guess, 
awareness. And we cannot put every one of them in jail. We 
cannot build jails fast enough to do that. So if they are 
identified they just move into some other neighborhood. We get 
rid of the problem in our neighborhood, but they go somewhere 
else. So that really concerns me, how we can really do this.
    Do any of you want to comment on that? Sometimes I think it 
is an exercise in futility.
    Mr. Allen. Senator Burns, I know there has been a lot of 
gloom and doom, but I think we are really making headway on 
this. I think there is no question on the commercial side. We 
have been working with the financial companies. One of the 
things we are seeing is that these entrepreneurs are now using 
the credit card logos with an account not behind it, so that 
when you go to the site and you see the credit card logo what 
we are seeing is that it is being done for one of two purposes: 
either identity theft--you attempt to purchase access to a 
child pornography site and there is nothing there. To whom are 
you going to report that? So it is being used to steal 
identities.
    But second, it is also being used for these operators to go 
back to the purchaser and offer them other payment options.
    So I think there is already indications that the efforts of 
law enforcement and the private sector have disrupted the 
commercial side of this business.
    On the pure criminal and investigative side, the reality is 
the numbers of arrests and convictions have skyrocketed. There 
is far greater law enforcement presence than there has ever 
been before. What we are convinced is that the perceived 
anonymity of the Internet, the sense that nobody is looking, 
has really fanned the flames of this problem. The most 
important thing we can do is send a message that somebody is 
looking and that if you violate--you know, the Internet is a 
wonderful thing, but if you use it in an inappropriate way you 
are going to be prosecuted.
    Senator Burns. Thank you, Mr. Chairman.
    Senator McCain. Senator Pryor.

                 STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. Thank you, Mr. Chairman.
    The Internet is such an amazing thing, it can be so good 
and so bad. I know it has been hard for the Congress to get a 
handle on how we should do it, but basically I think we clearly 
in this area, we have a problem with exploited children. We 
also have a problem with recruiting kids to either be 
kidnapped, murdered, exploited, abused, whatever it may be, and 
that is all terrible.
    The other thing is that we have the problem where children 
in our homes are being exposed to pornography. I think that is 
very rampant and that is going on on the Internet. So I know my 
colleagues on this Committee are very committed to trying to 
find the right solution to that and so am I.
    Ms. Fisher, you mentioned in your statement that we have 
had some success in the foreign, with foreign countries and 
foreign prosecution. I am encouraged to see that. In fact, I am 
copying some of the cases that you cited and I would like to 
just tell the Committee I look forward to working with the 
Committee. But what tools should we employ, based on the cases, 
based on your experience? What tools should we use to try to 
equip our law enforcement in this country to be more effective 
overseas?
    Ms. Fisher. Well, we need to continue to train them and to 
get them to pass laws that make the possession of child 
pornography a serious crime with stiff penalties. As Ernie 
Allen said, some of this is just a matter of countries not 
having the laws. In others where they have the laws, it is a 
slap on the wrist or a mere fine for being caught with child 
pornography. We have to encourage them to do more.
    There are subcommittees of the G-8 that are looking at 
this. We have sent people over to other countries to train 
them, to share information about how to go after this. Training 
law enforcement over there to investigate these crimes, as we 
do here, is so important, both forensically and otherwise. So I 
agree, we have got to combat this internationally as well as 
domestically, Senator.
    Senator Pryor. Also, is the Department of Justice focused 
on repeat offenders? Do you have some sort of repeat offender 
system that you are going after folks time and again?
    Ms. Fisher. Absolutely. Of course, there are stiffer 
penalties, thanks to the Congress, for repeat offenders.
    Senator Pryor. Now, that is good to know.
    Sheriff, let me ask you. I know you are kind of down in the 
trenches on this.
    Mr. Brown. Yes, sir, and proud to be there, I might add.
    Senator Pryor. You have to work with very limited resources 
on a local level. I am sure you work in conjunction with your 
State and also the feds. How much cooperation are you getting 
from the State level and the Federal level.
    Mr. Brown. We get great cooperation. I do not know that 
there is any one agency that cooperates any better nor any 
worse than any other one. We have a good working relationship 
in Virginia. I know some of the ICAC Task Forces, it may not be 
as good in some areas. But I think basically overall that there 
is good cooperation.
    Senator Pryor. Is this an area where if Congress, if the 
Federal Government, would provide some more resources down on 
the State, local, and Federal level, would it help enhance what 
you are able to do?
    Mr. Brown. Senator, it would. I know I sound like a broken 
record. Yes, everybody comes before you and before Congress and 
before Congress and asks for money. I do not think we can be 
any different. We see a need on the local, the ICAC level, now 
speaking from the ICAC level, the Internet Crimes Against 
Children task force level. We do a lot of training of local 
officers. That is what we--one of the ideas that we have had I 
think from day one is, in fact that is part of our mandate, is 
to train local law enforcement and that is what we are doing.
    In Southwest Virginia, in the last--well, in Virginia we 
are responsible for the State of Virginia and West Virginia 
with the exception of five counties in the northern part of the 
State of Virginia that is a part of the Virginia State Police 
ICAC Task Force. But in the rest of Virginia and West Virginia, 
we have educated over 17,000 parents, teachers, etcetera, and 
we have trained in excess of 2500 law enforcement agents, 
State, local law enforcement.
    We would like to train more and we would like to be able to 
purchase equipment like we have from time to time. To staff a 
cyber unit is very expensive.
    Senator Pryor. So at some point the amount of resources 
that you can allocate has a bearing on how much of that 
training you can do.
    Mr. Brown. Absolutely.
    Senator Pryor. Let me ask Mr. Allen. I remember a 
politician years ago saying that money is the mother's milk of 
politics. It seems to me that credit cards may be the mother's 
milk of online pornography. Senator Burns pointed this out a 
minute ago, that follow the money. However, I think also what 
Senator Burns was saying is that a lot of these predators do 
not do it for the money. It is much deeper than money. It is 
almost maybe a legitimate illness that they have and a 
quantifiable illness that they have.
    But nonetheless, it does seem to me that if you are 
successful in going after the credit card use you would be able 
to knock down a significant portion of this. Has that been your 
experience?
    Mr. Allen. Absolutely. Senator Pryor, one of the most 
frightening things about this phenomenon today is we have 
always assumed that it was pedophile-driven. I think what we 
have seen in the past few years is organized criminals and 
extremist groups, not driven by a pedophile motive, but 
recognizing that this is easy to produce, it is inexpensive to 
produce, there is a huge consumer market for it, and 
historically there has been relatively little risk.
    So I think if we can attack the money, follow the money, 
take the money out of it, we eliminate a very dangerous side of 
this problem.
    Senator Pryor. The money seems to be feeding the beast, so 
to speak. It seems to be providing incentive out there to get 
more and more out there online.
    Really, I have one last question, and that is, a friend of 
mine in Little Rock a year or so ago talked to me about this 
idea that he had, and I do not know if it is original to him, 
but now I know that other ideas are out there like this, but to 
set up a new domain, a triple-X domain, and basically somehow 
or another, depending on how it was structured, but somehow or 
another try to get pornography generally, including certainly 
child pornography, over to the triple-X domain.
    I guess it would be, based on the Supreme Court cases, it 
would be similar to when you walk into a bookstore or a 
convenience store now there is a magazine rack. There are 
legitimate limitations, constitutional limitations, that you 
can put on the magazines. Maybe they have to be covered, they 
have to be put up higher on racks, etcetera.
    So basically the idea would be on the Internet you could 
force everything over to the triple-X domain. I just would like 
to hear from the panel if I could get each one of your comments 
on that, if in your view that would help your job and help us 
crack down on child pornography.
    Do you mind starting?
    Ms. Fisher. No, not at all. You know, we would certainly be 
happy to look at that. I had not had that issue raised with me 
before. Certainly it sounds somewhat similar to the idea of 
something that Senator Burns I think was talking about earlier, 
which is the web labeling, that if there is, not child 
pornography, which is illegal, but other kinds of sexually 
explicit material that is not criminal on the Internet, that 
before you can have that on the Internet you have to label it 
and it has to take you a click before you get there.
    I know the Justice Department has been very supportive of 
that type of legislation. So we are happy to look further at 
that idea and discuss it with you.
    Mr. Finch. Senator Pryor, I would defer to my parent 
agency, the Department of Justice, as far as the response is 
concerned. However, most of the predators are visiting the 
sites frequented by children, and so the triple-X site might 
address the adult pornography, but when it comes to the child 
pornography and the people who crave that type of material, 
they are going to visit the spaces that are frequently, or the 
sites frequently visited by children. So I am not sure how much 
it would cut down on our predators on the Internet.
    Senator Pryor. But it may not get all the predators, but 
nonetheless it could help with child pornography generally and 
pornography generally.
    Mr. Finch. It could definitely have a positive impact.
    Mr. Brown. Senator, I quite frankly, I do not know. I, like 
Mr. Finch, would have to defer to the Department of Justice. I 
absolutely do not know. As you say, I am in the trenches. That 
is above my pay scale.
    Mr. Allen. Senator, I too will yield to the Justice 
Department. The only point I want to make is that child 
pornography is not protected speech. It is criminal. It should 
not be in anybody's domain. The goal is to root it out and 
eradicate it.
    Senator Pryor. Thank you, Mr. Chairman.
    Senator McCain. Senator Ensign.

                STATEMENT OF HON. JOHN ENSIGN, 
                    U.S. SENATOR FROM NEVADA

    Senator Ensign. Thank you, Mr. Chairman. Thank you for 
holding this very important hearing. A lot of people in America 
think that this stuff goes on, but they have no idea to the 
extent that our children are being subjected to and the numbers 
I think of adults that are engaged in this.
    Do either maybe the FBI or the Justice Department or any of 
you, do you have any statistics on the number of people? Are 
there estimates on the number of people that are maybe involved 
in the United States in child pornography?
    Mr. Finch. Senator, we do not have any numbers. It would be 
a guess that I could not quantify with any empirical source, 
just because these predators, these people, do not really make 
their identity known because it is not the most upstanding 
thing to do. Trying to identify these folks in a quantifiable 
form so that we can say we have made a significant impact, it 
is a tough thing, almost impossible to do.
    Senator Ensign. Well, illegal drugs are illegal, but we 
have at least some statistics on whether or not people are 
using percentages. They can at least take some educated guesses 
on the number of people engaged in activities like that. There 
are a lot of activities that are illegal that are not things 
that people want to brag about, but they at least maybe have 
statistics.
    There is none in the government that we know of, though?
    Ms. Fisher. I think there are certainly estimates that I 
have seen where there are tens of thousands of these people 
trolling the Internet every day. We have seen a website that we 
mentioned earlier today which, one website with child 
pornography, had 70,000 customers, and we talked about that 
earlier. So that gives you somewhat of a scope. I have also 
seen----
    Senator Ensign. 70,000 U.S. customers or worldwide 
customers?
    Ms. Fisher. I do not know that they were all U.S. 
customers.
    The other thing is I have seen estimates--and Mr. Allen 
might be able to speak further on this--on the financial end, 
that it is a multibillion dollar industry, that people are 
paying 29.95 a month or whatever for access to these commercial 
websites, they are buying and selling these images on the 
Internet for money. The scope of the problem is immense. It is 
definitely an epidemic that is getting worse and we need to 
continue our efforts and redouble them.
    Senator Ensign. Go ahead, Sheriff Brown.
    Mr. Brown. Pardon me. When we were appointed a task force 
in 1998 there was a figure and I am not sure whether it came 
from NCMEC, if it came from the University of Thailand, I think 
which tracks again the sites, the money, etcetera. They were 
saying it was 10,000 websites being run by sexual predators, 
pedophiles. We were told not to say ``pedophiles'' because we 
are not physicians, so we call them sexual predators.
    I just saw a figure last night where that figure is up 
around 100,000. Now, if you multiply that by 70,000, just take 
70,000 customers, you have got a tremendous amount of people in 
this arena. Between--again, when we first came on it was 
between 2 and $4 billion, I think, industry and now who knows 
where it is. It is I would say a 23, $27 billion business.
    Senator Ensign. I cannot even believe that some of you can 
work in this industry. It is work that needs to be done. But 
even just reading some of your testimonies, you get sick to 
your stomach. I applaud anybody that can actually do this kind 
of work because it is such important work.
    I realize that you want to call them sexual predators. I 
will call them pedophiles for you. The idea that there are 
those involved who just view pornography--some have called it a 
victimless crime, obviously as far as other than the person 
that had, the child that had the pictures take of them. I think 
it is important to debunk that myth right away, that it is not 
a victimless crime, that not only the people viewing this--even 
if they say that they are never going to, are there not a large 
number of people who start by viewing who end up, then the next 
appetite grows a little stronger and a little stronger, until 
they actually act on what they are viewing, and that is when 
they go out and commit the sexual act? Mr. Allen?
    Mr. Allen. Senator Ensign, we do not believe that people 
who will spend money or will go to a website to see images of 
4-year-olds being raped do so as a matter of intellectual 
curiosity.
    Our view on the 70,000 customers of that Texas website were 
that every one of those people not only was violating the law, 
but was a person of interest, and we do believe that one of the 
elements that we really have to grapple with on the Internet is 
a kind of addiction, a continuing quest for something more 
extreme, something new, the new images. That is why it 
represents such a menace and such a threat to America's 
children, because while the technology is global, in every one 
of these cases there is a local victim.
    Senator Ensign. Getting to the viewing and maybe if you 
could, either FBI or Justice, talk about the--because I am not 
just familiar off the top of my head with the penalties for, at 
least the Federal penalties for viewing child pornography, 
either distributing--can you just kind of break down what the 
minimums are versus what a sexual predator would--and if you do 
not have those today, if you could just get those for me it 
would be OK.
    Ms. Fisher. Certainly. The penalties range from 5 years all 
the way up to life imprisonment for different offenses, whether 
it is distribution, first time offense, second time offense, 
sex trafficking. There are additional mandatory minimums now 
because of the Adam Walsh Act. But I am happy to get you all of 
that information.
    Senator Ensign. The reason I even bring that up for 
discussion is this, that I have talked to some psychiatrists 
and some psychologists who believe that these sexual predators, 
these pedophiles, can be treated. I am not of that belief. The 
risk of the treatment--it is like, well, yes, but some of them 
maybe will repeat offend, but a certain percentage of them can 
successfully be treated, is the argument, and therefore they 
all deserve a chance. Well, I do not share that view. I view 
the children that they are going to repeat offend with.
    Does anybody have any statistics on the number of people 
that are, say, a pedophile--I have heard outrageous numbers, 
the number of people that they will actually abuse, the number 
of children that they will abuse in their lifetime. Also, do 
you have any recidivism rates as far as those are concerned?
    Ms. Fisher. Do you want to take it?
    Mr. Allen. A couple of responses, Senator. One is that the 
data on recidivism frankly has always been suspect because we 
know that so few of these cases are ever reported. The other 
point is that the recidivism rates vary based upon the nature 
of the offense. For example, recidivism rates for molesters who 
victimize boys is far higher than for those who victimize 
girls. Offenders who victimize boys tend to victimize huge 
numbers. Those who victimize girls, smaller numbers, but more 
girls tend to be victimized.
    The other thing, it really goes back 20 years, but some 
National Institute of Mental Health research which was based on 
interviews of sentenced, convicted child molesters, so whether 
this is representative of the universe is another question, 
done back in the 80s found, and I think the numbers are right, 
that the typical child molester will molest an average of 
something like 117 children during his lifetime. Again, those 
who victimize boys, the numbers go up into the 300 range.
    Senator Ensign. I had heard those numbers and I just wanted 
to hear it from you because I did not know whether, I mean they 
are such shocking numbers that I did not think that that was 
possible. But I knew I had heard those numbers before. I just 
could not remember where.
    Mr. Allen. And the vast majority of these offenses are 
never reported. If you will remember Arthur Dean Schwartzmiller 
in Santa Clara, California, a couple of years ago, he had been 
arrested nine times, but when he was arrested by Santa Clara 
police they found a diary that had detailed entries on 36,000 
descriptions of molestations of children. It may not be 36,000 
children; it may be multiple children.
    But for a substantial subset of this population, this is 
not a lapse of judgment; this is a lifestyle. You ask, Senator, 
about penalties. First I want to commend you and Senator McCain 
for the extraordinary work that the Congress of the United 
States has done. The penalties, the Federal penalties in these 
offenses, are excellent and these offenders are getting the 
kind of treatment that they need in the Federal system.
    We still have some work to do at the State level. For 
example, there are still six States where the possession of 
child pornography is still a misdemeanor. We believe that is 
not acceptable and that greater emphasis needs to be brought to 
this problem at all levels.
    Senator Ensign. My last question, Mr. Chairman, would just 
be simply, we are fighting--obviously we have this global war 
against radical Islamists around the world and we have a lot of 
our domestic resources going toward that, are we putting enough 
resources toward protecting our children when it comes to this 
online problem as well as the ones who actually are acting it 
out, sexual predators?
    Ms. Fisher. I think every dollar that we spend on 
combatting this problem is going to be a dollar well spent. I 
think the Adam Walsh Act authorizes more prosecutors, more 
money to ICACs, more forensic research, more forensic labs and 
things like that, and we need to take a hard look at whether 
that money is appropriated. I think the Attorney General in his 
testimony earlier today on this very issue talked about that. 
So I think the money there is well spent.
    If I could just mention one other thing going back a 
minute, Senator, when you talked about some people that say 
that this is a victimless crime. I just say no way. I mean, 
every time somebody picks up a picture of child pornography 
that is a crime scene. That child is being victimized again and 
again every time their picture is shown to a new person.
    Senator Ensign. Thank you, Mr. Chairman. I appreciate it.
    Senator McCain. Mr. Allen, there is no doubt in your mind 
that there is a link between possession of child pornography 
and actually sexually assaulting a child?
    Mr. Allen. No doubt whatever.
    Mr. Brown. Absolutely.
    Senator McCain. And this humanization is a serious issue?
    Mr. Allen. It really is. What we are seeing is fundamental 
deterioration in societal views and attitudes about this. One 
of the great challenges frankly is just to awaken America to 
what this is about. Good people do not want to think about it. 
Good people do not want to see it.
    Senator McCain. Do you know what happens to these kids when 
they grow up, sheriff?
    Mr. Brown. They are scarred the rest of their life, 
Senator. I mean, there is so much again documentation. I know 
NCMEC has I am sure reams of cases that they have examined to 
show that this happens. You can go to the Internet and find it. 
You can research what the mental breakdown is after something 
like this happens, and it is tremendous.
    Senator McCain. Well, Sheriff, I would like you and Mr. 
Allen to drop me a note saying exactly what you think 
additional measures we can take, whether it be financial, more 
money for different efforts, whether it be increased personnel, 
whether it be additional legislation. We would like to hear 
from you----
    Mr. Brown. Yes, sir.
    Senator McCain.--so that we can use that as our guidelines. 
If this problem continues to grow as seriously as you say, we 
need to contemplate additional actions on the part of all of 
us. Obviously, as Ms. Fisher points out, education is one of 
the key areas. I do not think Americans hear enough about this, 
about this situation.
    Ms. Fisher, one of the things that pops into my mind 
particularly as far as international cooperation is concerned--
and I do not usually like to do it--but maybe conditionality on 
trade agreements. I know that is not in your area of 
responsibility, but it seems to me if we have a trade agreement 
with a country that maybe one of the conditions would be that 
there are sufficient laws in that country that would address 
this issue.
    Do you think that has any merit or you would rather not 
comment?
    Ms. Fisher. I am happy to pass that on to my colleagues at 
the State Department. I better not travel out of my lane. But I 
think that what that illustrates, Senator, is that we all need 
to really think creatively about attacking this problem from 
all different angles, and we need to step outside to think of 
what additional things we can use, because we do need to 
continue to make a dent in this problem.
    Senator McCain. Well, I want to thank the witnesses and I 
thank you for your good work, and I am glad I do not have your 
job. But I am very, very grateful that you do it, and I say 
that on behalf of the citizens of this country. We are very 
grateful. Thank you.
    [Whereupon, at 4:12 p.m., the Committee was adjourned.]
                            A P P E N D I X

    Response to Written Questions Submitted by Hon. John McCain to 
                            Alice S. Fisher
    Question 1. How concerned is the Department of Justice about 
reports that child pornographers and pedophiles are connecting more 
frequently online through virtual rooms in Internet Relay Chat, on 
message boards, and in other online forums where they exchange 
information and share images? How closely are these activities 
monitored by DOJ?
    Answer. The Department of Justice is deeply concerned about the 
effect the Internet has on the volume and severity of child pornography 
and child sex abuse crimes. Overall, the advancement of Internet and 
file-sharing technologies has contributed to a significant increase in 
the proliferation of child pornography. This sets into motion a cycle 
that leads to more, and more depraved, images of child pornography 
being traded online. First, the message boards and chat rooms have a 
normalizing effect. An individual who is sexually attracted to children 
might feel ashamed or alarmed about his feelings, and so would be 
afraid to act on it for fear of violating a deeply held societal norm. 
The Internet, however, connects that individual to others who share his 
deviant interest. Knowing there are others out there like him, the 
individual loses his shame and begins to see his desire as common or 
even normal, and so is less afraid to act on it. Second, the Internet 
drives demand. As the Internet permits child pornography consumers to 
amass large collections quickly, there is a constant demand for new and 
more extreme material, leading to younger victims being forced to 
perform more graphic sexual acts.
    For this reason, the Department of Justice closely monitors 
developments in both Internet and digital storage technologies. While 
Internet Relay Chat, message boards, and online forums have existed for 
some time, newer technologies such as f-serves and peer-to-peer 
software are becoming more commonplace. Furthermore, digital storage 
capabilities have changed greatly in the last few years, as easily 
hidden thumb drives or flash drives can store tens of thousands of 
images, as can iPods or other mp3 players. Mobile phones can now be 
used to produce and store images of child pornography. The Department 
quickly studies these technologies, develops investigative and 
prosecution tactics, and provides guidance to the field on how best to 
respond to the new technology.

    Question 2. Is the apparent growth in child pornography available 
online driven by commercial enterprises looking to profit from this 
exploitation, or is it being driven more by individuals who create and 
distribute images for their own gratification?
    Answer. Both commercial websites and ``homegrown'' child 
pornography producers play a role in the growth of child pornography 
available online. Commercial websites naturally reach a wider audience 
than an individual who makes his own child pornography, as websites by 
design are in the public sphere. Websites also reach those consumers 
who are less ``tech sawy'' and might not be as adept at other methods 
of file sharing such as fserves and peer-to-peer software. However, 
commercial websites are the least anonymous method of obtaining child 
pornography online, as the consumer must provide a valid credit card 
number in order to receive the material. Further, the site may not stay 
up for long to avoid detection or investigation by law enforcement. 
Individuals who create and distribute images may not envision that 
their material will be traded in an international market, although that 
is often the result. Whether the individual producer e-mailed the 
material to a single individual or made it available on an f-serve, 
once a series becomes known in the community it becomes a prized 
commodity, and collectors will try to obtain all of the images in the 
series. Often collectors barter images in their own collection to get 
new material, so in an effort to get the new images, a collector will 
continue the circulation of older material.

    Question 3. Is there anything that online companies such as ISPs 
could do that they are not doing today that could help our effort to 
prosecute and convict individuals in possession of child pornography?
    Answer. It is difficult to speak about ISPs as a class because 
among all ISPs there is a great range in their resources and commitment 
to combating child pornography. Generally speaking, however, it would 
benefit our investigations and prosecutions if ISPs were to retain data 
for longer periods of time than they currently do, to register with the 
Cyber Tipline, and to prepare and disseminate a guide to law 
enforcement that describes what information they retain, in what 
format, and for how long, as well as accurate contact information for 
service of process. The Department of Justice has consulted with ISPs 
to determine what, if any, steps can or should be taken to increase the 
Department's ability to prosecute those exploiting children, and will 
do so again at an appropriate time. Additionally, the major ISPs have 
jointly developed a body of ``best reporting practices'' for compliance 
with Title 42, United States Code, Section 13032, which requires all 
ISPs to report the presence of child pornography on their systems to 
the National Center for Missing & Exploited Children (NCMEC). NCMEC has 
advised that these best practices are followed by all of the major ISPs 
and that the effectiveness of ISP reporting has improved significantly. 
All ISPs, big or small, should follow these best practices.

    Question 4. You state in your testimony that the Attorney General 
sees the Project Safe Childhood initiative--which I commend--as a 
three-legged stool made up of the DoJ, state and local law enforcement, 
and non-governmental organizations like the National Center for Missing 
& Exploited Children. What role do private sector, for-profit companies 
have in the Project Safe Childhood effort? Shouldn't they be a fourth 
leg that you can rely on?
    Answer. There is a role for the private sector in the Project Safe 
Childhood effort. The recently formed Financial Coalition Against Child 
Pornography provides a clear example of contributions the private 
sector can make to the fight against child pornography. The Financial 
Coalition is comprised of more than twenty of the world's most 
prominent banks, credit card companies, third-party payment companies, 
and Internet services companies. Members of the Coalition include 
America Online, American Express Company, Authorize.Net, Bank of 
America, Capital One, Chase, Citigroup, Discover Financial Services 
LLC, e-gold, First Data Corporation, First National Bank of Omaha, 
Google, Mastercard, Microsoft, North American Bancard, Nova Information 
Systems, PayPal, First PREMIER Bank/PREMIER Bankcard, Standard 
Chartered Bank, Visa, Wells Fargo, and Yahoo! Inc.
    These organizations have joined with the National Center for 
Missing & Exploited Children (NCMEC) and its sister organization, the 
International Centre for Missing & Exploited Children (ICMEC), in the 
fight against Internet child pornography. The Coalition's goal is to 
eradicate commercial child pornography by 2008. The Department of 
Justice and other governmental agencies have engaged and supported this 
effort.
    The first step to achieving the Coalition's goal is to establish a 
global Clearinghouse on child pornography to provide a unified system 
for identifying illegal activities and sharing information between 
Coalition companies. NCMECIICMEC will serve as the global Clearinghouse 
on the commercial aspects of child pornography. Coalition members have 
agreed to be vigilant and will look proactively for and report child 
pornography to the Clearinghouse. The Coalition will ensure that 
information derived from proactive efforts is reviewed by the 
Clearinghouse, that information is shared with Coalition companies, and 
that a tracking and feedback system is developed to ensure that broad-
based action is taken to eradicate illegal practices.
    Once the Financial Coalition identifies child pornography websites 
with credit card. logos or other methods of payment information, an 
effort is made to identify the merchant parties, with the assistance of 
Federal law enforcement. Ultimately, all relevant information is shared 
with the appropriate law enforcement agency--Federal, state, local, or 
international. By design, if that agency does not begin an 
investigation within a set time, members of the Financial Coalition 
have agreed to take action under their terms of service against the 
merchant.
    In addition, ISPs are an integral part of Project Safe Childhood's 
efforts to combat online child pornography offenses. As stated above, 
it would benefit our investigations and prosecutions if ISPs were to 
retain data for longer periods of time than they currently do, to 
register with the Cyber Tipline, and to prepare and disseminate a guide 
to law enforcement. The major ISPs have jointly developed a body of 
``best reporting practices'' for compliance with Title 42, United 
States Code, Section 13032, which requires all ISPs to report the 
presence of child pornography on their systems to NCMEC.
    Finally, the technology business community is an important partner 
in the prevention, investigation, and prosecution of child exploitation 
crimes utilizing camera and video phone technology.
    Project Safe Childhood also encourages the participation of local 
businesses and business organizations through investment in their 
community programs and initiatives aimed at protecting and assisting 
children. Additionally, Project Safe Childhood partnerships are seeking 
to engage local media outlets in the education of their communities 
regarding the dangers posed by the Internet to children and the steps 
that families can take in response to this increasing threat. Media 
outlets are also uniquely suited to helping Project Safe Childhood 
partnerships in mobilizing their communities to locate victims. The 
AMBER Alert program is an excellent example of the media's ability to 
assist law enforcement efforts to protect and rescue children.

    Question 5. In broad terms, could you describe to us the trends you 
are seeing in the 18 multi-district investigations that you are 
currently conducting? Are these investigations of commercial sites, or 
are they investigations of groups of individuals exchanging images 
online in private chat rooms or through peer-to-peer networks?
    Answer. The eighteen multi-district investigations cover a wide 
range of technologies. There are multi-district investigations 
currently pending based on f-serves, online groups or chat rooms, 
commercial child pornography websites, and peer-to-peer software. For 
the investigations pertaining to commercial child pornography websites, 
most are currently focused on the customers of the website. A few of 
the investigations are based on small, exclusive networks of 
individuals who produce child pornography and then trade it only with 
each other, often via e-mail or in private chat channels. Some of the 
investigations are undercover operations. Some of the investigations 
are domestic in scope, and some are international.
    We are seeing an increase in receipt and distribution offenses 
related to offenders trading or otherwise distributing these images to 
each other. We are also seeing a heightened awareness and understanding 
by law enforcement of the investigative steps necessary to prove 
receipt and distribution offenses.
    The content of the child pornography we are finding is increasingly 
graphic and more sadistic. Sexually explicit images of toddlers and 
babies are found more frequently. We are also encountering offenders 
whose collections of child pornography are more voluminous, and 
shocking in their meticulous organization by age, gender, and the 
conduct depicted.

    Question 6. Do you believe that your efforts are reducing the 
production and distribution of child pornography online and otherwise?
    Answer. Despite our best efforts, including in the recent increase 
in prosecutions for child exploitation crimes, the number of reports to 
NCMEC's Cyber Tipline continues to grow every year and the gravity of 
the problem seems to be escalating. However, we do not believe our work 
is in vain and Congress has provided critical new tools by enacting 
enhanced penalties and mandatory minimums. We are hopeful, therefore, 
that putting more offenders behind bars for longer periods has at least 
curtailed the rate at which the child pornography problem has grown, 
even if it has not been offsetting. Moreover, through the number and 
magnitude of our prosecutions, we strive to deter offensive conduct, 
especially more serious contact offenses, which by their nature are 
very difficult to deter. And, while we cannot truly know whether we 
have been successful in deterring conduct, we have seen movement and 
changes in criminal behavior that likely result from our aggressive, 
dedicated, and innovative investigations and prosecutions. We believe, 
then, that our work has had an important impact, and we are committed 
to making that impact even more meaningful.

    Question 7. You state in your testimony that the Department of 
Justice is not only tracking down creators, distributors, and consumers 
of child pornography, but that you are also taking steps to identify 
and rescue the victims depicted in these images. This is a commendable 
goal. In addition to the Endangered Child Alert Program, which appears 
to have been successful, what other efforts are you making to achieve 
this important goal of finding the victims?
    Answer. The FBI's Endangered Child Alert Program (ECAP) is the most 
significant effort by law enforcement to identify, find, and rescue 
victims of child pornography offenses. In addition, law enforcement 
works closely with NCMEC's Exploited Child Unit, which is dedicated to 
locating and identifying victims of child pornography. As a matter of 
routine, law enforcement will examine a child pornography defendant's 
collection to identify both known and unknown victims. Material 
depicting unknown victims is referred to the Exploited Child Unit, 
which focuses its efforts on trying to locate the victim. We strongly 
encourage Federal, state, and local law enforcement to work actively 
with the Exploited Child Unit, and to provide the Unit with all found 
images of victims, including those images that do not contain sexually 
explicit conduct. These non-child pornography images often prove to be 
extremely useful in the identification of victims.
    In addition, the Executive Office for United States Attorneys, the 
Child Exploitation and Obscenity Section (CEOS), and the FBI's Office 
for Victim Assistance have been working together to develop procedures 
for according rights to victims of child pornography possession 
offenses. Pursuant to the Justice for All Act, 18 U.S.C. Sec. 3771, 
these rights can include notification of court cases where images of 
their victimization are the basis of charges in Federal district court 
and the court's consideration of their victim impact statements when 
available.
    In the context of child prostitution cases, we also work closely 
with state and local law enforcement to accurately identify and rescue 
children victimized through prostitution.
    The Departments of Justice and Health and Human Services have 
programs that are important in assisting victims of child sexual 
exploitation, including those who are victims of international and 
domestic child sex trafficking.

    Question 8. Does the Department of Justice benefit from reports 
that come in to the National Center for Missing & Exploited Children 
through the CyberTipLine? Are there any improvements to that program 
and the reporting obligations under Federal law that the Department 
would recommend?
    Answer. Reports to the Cyber Tipline are invaluable, and often lead 
to successful investigations and prosecutions. As but one example, one 
child pornography investigation began after Yahoo! reported that 
someone uploaded images of child pornography to a Yahoo! group. The 
individual was located, and his computer was seized pursuant to a 
search warrant. Over 66,000 images of child pornography and child 
erotica were found on his computer. He was sentenced to 97 months in 
prison after pleading guilty to receipt and possession of child 
pornography.
    The Department would recommend Congress enact certain revisions to 
42 U.S.C. Sec. 13032, which codifies the ISP reporting requirements. 
DOJ submitted proposed revisions to that section to Congress earlier 
this year. The revision would amend existing provisions of the law that 
require certain providers of electronic communications services to 
report violations of the child pornography laws. Current law provides 
that a provider who knowingly and willfully fails to report such 
violations shall be subject to a criminal fine of up to $50,000 for the 
initial failure to report and $100,000 for each subsequent failure to 
report. Prosecutors and law enforcement sources report that this 
criminal provision has been virtually impossible to enforce because of 
the particular mens rea requirement and the low amount of the potential 
penalty. This legislation would triple the criminal fines available for 
knowing and willful failures to report, making the available fines 
$150,000 for the initial violation and $300,000 for each subsequent 
violation. In addition, the legislation would add civil fines for 
negligent failure to report a child pornography offense. The civil 
penalty is set at $50,000 for the initial violation and $100,000 for 
each subsequent violation. The Federal Communications Commission would 
be provided with the authority to levy the civil fines under this 
section and to make the necessary regulations, in consultation with the 
Attorney General, in order to carry the fines into effect and to 
provide an appropriate administrative review process. A civil penalty 
provision will be easier to enforce, thus making the statute more 
effective.

    Question 9. In your view, are companies that transmit child 
pornography to NCMEC through the CyberTipLine open to prosecution for a 
violation of Title 18's prohibition on the transmittal of child 
pornography?
    Answer. Because ISPs are required by statute to report child 
pornography detected on their systems, they would not be prosecuted for 
actions taken to comply with that reporting requirement.

    Question 10. Does the Department of Justice have adequate resources 
to keep up with technological advances through its High Tech 
Investigative Unit? I ask because your testimony makes clear that law 
enforcement is often playing catch-up with these criminals, who clearly 
have learned to maximize new technologies such as sophisticated 
security measures, encryption software and data destruction software to 
stay a step ahead of law enforcement.
    Answer. The President's Budget request for FY 2007 provides the 
High Tech Investigative Unit with resources sufficient to keep pace 
with advances in technology and criminal innovation with the same. The 
challenge to law enforcement, at all levels, working against 
technology-facilitated sexual abuse and exploitation of children is the 
digital forensics backlog generally. We note and appreciate Congress's 
authorization for 30 additional computer forensic examiners within the 
FBI's Regional Computer Forensic Laboratories system and 15 additional 
computer forensic examiners within Immigration and Customs 
Enforcement's CyberCrimesCenter in Section 705 of the Adam Walsh Act, 
signed by the President in July of this year. This represents an 
important investment in computer forensics manpower.

    Question 11. What percentage of your child pornography cases 
involves the Internet?
    Answer. While this is difficult to quantify, a large percentage of 
the Department's child pornography cases today involve the Internet.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John McCain to 
                            Michael J. Brown
    Question 1. A recent New York Times article gives some insight into 
what appears to be a growing online community of child pornographers 
and pedophiles. The article states that this online ``community''--for 
lack of a better word--``has transformed in recent years into a more 
complex and diversified community that uses the virtual world to 
advance its interests in the real one. Today, pedophiles go online to 
seek tips for getting near children--at camps, through foster care, at 
community gatherings and at countless other events. They swap stories 
about day-to-day encounters with minors. And they make use of 
technology to help take their arguments to others, like sharing online 
a printable booklet to be distributed to children that extols the 
benefits of sex with adults.'' Is this something that your task force 
has seen?
    Answer. Our officers have encountered these ``communities'' while 
online, and do on a regular basis. Most people do not realize that a 
large number of the ``social networking sites'' are becoming the 
UNDERGROUND communities of the 60s . . . and, you have to be invited to 
participate.

    Question 2. Are these people becoming more emboldened by these 
opportunities to meet and exchange information?
    Answer. Most people feel there is a certain amount of anonymity 
associated with the Internet, and with free wireless sites ``shooting 
up'' everywhere without the providers accountable for logging activity 
on the users part, quite often predators can ply their nefarious 
activities and remain out of the reach of the law.

    Question 3. A recent Atlanta Journal-Constitution article depicts 
the experiences of undercover investigators with the FBI's Safe Child 
Task Force in Atlanta:

        ``At precisely 2:24 p.m. on a recent afternoon, the task force 
        leader sits down at a computer . . . and calls up a popular 
        peer-to-peer file sharing program, the kind many people use to 
        download music.''

        ``At 2:26, using codes and acronyms that would mean something 
        only to pornographers, pedophiles and the police officers who 
        chase them, the agent makes the screen swim wit the titles of 
        hardcore files that appear to feature children being 
        molested.''

        ``Later, he opens a horrifying folder of images. It represents 
        what the task force has collected over years of trolling 
        Websites and chat rooms and raiding pedophiles' homes in a 
        seemingly futile effort to stem the tide of child 
        exploitation.''

        ``Here are little children engaged in every sort of sex 
        imaginable, pleading and with fear in their eyes.''

        Is this an accurate portrayal of your day-to-day efforts to 
        combat child pornography?
    Answer. Yes sir it is, and sometimes multiplied ten fold . . . in 
our case, our investigators are looking at a young female, as young as 
3 to 4 years of age (the images can be either digital images or videos) 
. . . there is a look of stark fear on her face. She is being forced to 
perform any number of graphic sexual acts with an adult male or males . 
. . oral sex, vaginal sex, anal sex; many of the images have another 
adult male ejaculating on this young girl, most of the time on her 
face. Image after image . . . video after video . . . hundreds of 
thousands of them!

    Question 4. What's the psychological toll on your investigators?
    Answer. After looking at images, day after day, of the type 
described in my previous answer, we have had investigators that have 
had to leave the unit and seek counseling because of the emotional 
distress.

    Question 5. What kinds of resources are available to provide them 
with counseling when they need it?
    Answer. Investigators with the Southern Virginia ICAC Task Force 
(Operation Blue Ridge Thunder) attend mandatory counseling two times a 
year, in January and August.

    Question 6. What distinguishes your Internet Crimes Against 
Children Task Force from the 40-odd other ICACs around the country?
    Answer. I don't believe that we are any more distinguished than any 
other ICAC Task Force . . . all of them play an important role in 
helping to protect our children. In my forty-two years of law 
enforcement experience I don't think I've ever worked with a more 
dedicated and professional group of criminal investigators . . . 
investigators like Flint Waters * (WY), Dave Peifer (PA), Ronnie 
Stevens (NY), Scott Christensen (NE), Mike Harmony (VA) . . . and, 
retired legend, Sergeant Nick Battaglia (CA). And, being from the 
Federal system I know what a good administrator is, and the ICAC Task 
Forces have two of the best . . . OJJDP's Administrator Bob Flores, and 
Ron Laney, Director, Child Protection Division, OJJDP. I refer to the 
ICAC Task Forces as ``law enforcement's best kept secret.''
---------------------------------------------------------------------------
    * This man could be making a million dollars in the private sector, 
but he chooses to stay in the public sector helping keep our children 
safe from the sexual predators that prowl the Internet.

    Question 7. What makes a good ICAC and how do we ensure that all 
ICACs are effective?
    Answer. As in my previous answer, the men and women assigned to the 
task forces make them some of the best cyber-crime investigators in the 
world . . . their priority is children and keeping them safe from the 
sexual predators that lurk on the Internet. The ICAC Task Forces' work 
under guidelines established by the Department of Justice; guidelines 
that are adopted by all of the ICAC Task Forces in the form of policies 
and procedures. It is incumbent for each task force to adhere to those 
policies and procedures, and all ICAC Task Forces are subject to a peer 
review process that is one of the most stringent in all law 
enforcement.

    Question 8. What should ultimately be done with pedophiles?
    Answer. They need to be prosecuted to the fullest extent of the LAW 
and tracked through electronic monitoring and regular personal visits 
by both social service and law enforcement personnel.

    Question 9. Can they ever really reenter society and not pose harm 
to children?
    Answer. I think the research conducted so far indicates that 
neither can be assumed or expected with the current treatment regimens 
and offender tracking methods.

    Question 10. Do you support options such as civil confinement?
    Answer. No.

    Question 11. You suggest in your testimony that the Federal 
Government should encourage foreign governments to crack down on child 
porn in their country. How much child pornography originates abroad, as 
compared to child pornography that is produced in the U.S.?
    Answer. I am not sure of the total amount, however, and depending 
what source you quote, figures in the range of 30 percent to 60 percent 
are quoted.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John McCain to 
                              Ernie Allen
    Question 1. Is the CyberTipline effective? Has it contributed 
significantly to the prosecution and conviction of individuals who 
possess and distribute child pornography?
    Answer. Unequivocally, the answer is yes. When the CyberTipline was 
created in 1998, the overarching concern was--whom do you call? Much of 
American law enforcement was not online. There were few specialized 
investigative units targeting online child sexual exploitation. The 
Internet was and Internet crimes was that it was multi-jurisdictional 
and often multi-national.
    Our vision was to create a virtual ``9-1-1 for the Internet,'' 
focusing on child sexual exploitation crimes. The response has been 
overwhelming. Through October 8, 2006, we have handled 422,703 reports, 
including 380,256 reports of child pornography. More than 69,000 
reports have been sent directly to law enforcement by analysts in our 
Exploited Child Unit (ECU). Every CyberTipline report is available for 
review by the Federal Bureau of Investigation, Immigration and Customs 
Enforcement, United States Postal Inspection Service, and the Child 
Exploitation and Obscenity Section of the Department of Justice.
    The CyberTipline has the ability to conduct historical searches on 
all reports and report fields, offering an immensely valuable tool for 
law enforcement agencies in recognizing and avoiding investigative 
conflicts. In addition, law enforcement agencies often submit 
information about suspects to be listed alongside CyberTipline reports 
in order to alert authorities in other jurisdictions, saving time and 
investigative resources.
    While we often do not receive detailed feedback from law 
enforcement agencies about case resolutions and thus do not have 
comprehensive data, we know that thousands of individuals have been 
arrested and prosecuted as a result of CyberTipline reports. We often 
learn of these arrests and convictions through media outlets and then 
update our system.
    To give you a brief sense of the impact that the CyberTipline, the 
following are a few excerpts from recent media reports regarding 
arrests and prosecutions resulting from CyberTipline leads:

  <bullet> An October 2006 headline from KWWL in Des Moines, ``National 
        exploited children center tip leads to Iowa arrest.'' The story 
        reads, ``A tip from the National Center for Missing & Exploited 
        Children directed Iowa authorities to a central Iowa man, who 
        was charged with five counts of sexual exploitation of a 
        minor.''

  <bullet> An October 4, 2006 story from the St. Louis Post-Dispatch, 
        ``A St. Louis man who prosecutors said had accumulated the most 
        child pornography ever seen in a criminal case in the Eastern 
        District of Missouri pleaded guilty Tuesday rather than face 
        trial.'' The report adds, ``employees of Yahoo! . . . triggered 
        the case with a complaint with the National Center for Missing 
        & Exploited Children after spotting suspicious material on a 
        Yahoo! website.''

  <bullet> A September 29, 2006 article from the Journal-Sentinel in 
        Wisconsin is headlined, ``Funeral Director Given 15 Years for 
        Soliciting Boy.'' The article notes that ``the message and 
        other evidence were discovered by the boy's mother, who turned 
        them over to the National Center for Missing & Exploited 
        Children in Alexandria, VA, which in turn contacted the 
        Wisconsin Division of Criminal Investigation.''

  <bullet> A September 13, 2006 article from the Tallahassee Democrat 
        is headlined, ``Sex Offender Facing Child Porn Charges.'' The 
        article reads, `` . . . Rice's arrest concluded an 
        investigation that involved subpoenas of three e-mail accounts. 
        The Sheriff's Office received a tip from the National Center 
        for Missing & Exploited Children in June that a Crawfordsville 
        account sent pornographic pictures over the internet.''

  <bullet> A recent article from the Tribune-Democrat in Pennsylvania 
        is headlined, ``Five Accused of Sex Abuse.'' The article reads, 
        ``The alleged sexual abuse came to the attention of Richland 
        Township police in January through information supplied by the 
        National Center for Missing & Exploited Children, authorities 
        said.''

  <bullet> A March 2006 News Release issued by the Medford, 
        Massachusetts Police Department states that ``after a month-
        long investigation, Middlesex County Sheriff's Office and the 
        Medford Police affected the arrest of George A. Shipps for 
        online enticement of a 15-year-old female.'' They add, 
        ``Approximately 1 month ago the MPD Computer Crime Unit 
        received a tip from the National Center for Missing & Exploited 
        Children's CyberTipline . . . The investigating officers were 
        able to corroborate that information through their 
        investigation.''

    There are many other examples. The CyberTipline provides a simple 
way for citizens to help, and is having impact far beyond what we ever 
dreamed possible. Yet, perhaps our greatest challenge remains that too 
few people know about it, and in a time of need, many more may not know 
how to find it or utilize it.
    Reporting of child pornography and online enticement of children 
should be easier and more universal. We are eager to explore mechanisms 
that will make reporting easier and more instantaneous, such as a link 
or icon that enables reporting at the very moment the illegal conduct 
is detected by the public. Such an icon could serve as a virtual panic 
button for children in chat rooms and on social networking sites, and 
an easy way for millions to report without having to know or remember 
www.cybertipline.com. In addition, methods of detecting these websites 
as soon as they are uploaded onto the web must be developed.

    Question 2. You state in your testimony that not all of the online 
companies that are obligated under Federal statute to report child 
pornography found in their networks are reporting these materials. Is 
it a question of the Federal statute that requires the reporting not 
having enough teeth? Is it a question of liability concerns on the part 
of the electronic service provider? How can we fix this problem?
    Answer. It is both. Though apparently mandated by Federal statute, 
42 U.S.C. Sec. 13032, not all ESP's are reporting and those that do 
report are not sending uniform types of information, rendering some 
reports useless. Some ESPs take the position that the statute is not a 
clear mandate and that it exposes them to possible criminal prosecution 
for distributing child pornography themselves.
    We have been advised that the statute is flawed and thus, 
unenforceable. In addition, because there are no guidelines for the 
contents of these reports, some ESPs do not send customer information 
that allows NCMEC to identify a law enforcement jurisdiction. So 
potentially valuable investigative leads are left to sit in the 
CyberTipline database with no action taken.
    We are pleased that 256 ESPs, including all of the major companies, 
are reporting. Yet, hundreds and perhaps thousands more, are not. The 
statute either needs to be amended so that regulations can be 
promulgated and the penalty provisions enforced against those who are 
non-compliant, or we need to develop more effective ways to reassure 
companies and persuade them to comply.

    Question 3. You also state in your testimony that you are not 
receiving uniform types of information from the companies that are 
obligated to report child pornography to NCMEC. Do we know what kind of 
information should be reported in all cases? Should the reporting of 
this exact kind of information be required by law?
    Answer. When it was clear that the underlying statute had 
fundamental defects that made uniform enforcement virtually impossible, 
we began a dialogue with the U.S. Internet Service Providers 
Association (USISPA). USISPA is committed to working with us to ensure 
that both the spirit and letter of the law are implemented fully, and 
we have made great progress. Together, we developed ``best practices'' 
reporting guidelines to address this problem. The major ESPs are 
following these guidelines. However, these are voluntary rather than 
mandatory, so there is no enforcement mechanism for those who choose 
not to follow them.
    We believe it essential that all ESP reports contain certain key 
elements:

  <bullet> Subscriber information associated with the image of 
        suspected child pornography: subscriber's screen name, user 
        identification name, e-mail address, website address/Uniform 
        Resource Locator (URL);

  <bullet> History of the image transmission: when the image was 
        uploaded, transmitted, reported to or discovered by the 
        reporting company, including a date and time stamp and time 
        zone;

  <bullet> Geographic identifying information: location of the 
        subscriber, the hosting website or URL, including area code, 
        zip code or Internet Protocol address.

  <bullet> The image of apparent child pornography.

    The current reporting statute also constrains NCMEC in that it 
permits us to forward the CyberTipline leads only to U.S. law 
enforcement. This is a real problem, considering the global nature of 
the Internet. As an example, there is a portion of one major ESP system 
based in the U.S. that is used primarily in Brazil. This ESP wants us 
to send information about child pornography they find on their 
customers' accounts to Brazilian law enforcement. But we are prohibited 
from doing so.

    Question 4. If the CyberTipline produced more and better 
information about child exploitation online, would that information be 
of benefit to law enforcement officials and prosecutors?
    Answer. Yes. There would be more reports that are ``actionable'' by 
law enforcement, therefore leading to more prosecutions and 
convictions. Comparing the total number of reports received versus the 
number of reports the ECU analysts are able to send to law enforcement 
directly demonstrates that more information being submitted into the 
CyberTipline is essential for referral to law enforcement.
    Those who prey upon children and distribute child pornography are 
identified and brought to justice based upon images and information. If 
we are able to receive and assess better and more complete information, 
more offenders will be identified and prosecuted successfully, and more 
children will be rescued.

    Question 5. You state in your testimony that Federal law does not 
currently require an electronic service provider to retain connectivity 
logs for their customers on an ongoing basis. These logs essentially 
tell the date and time of particular online activity. What are the 
objections to providing such logs to NCMEC?
    Answer. Some companies as a policy do not store the logs of IP's 
long enough to provide the data. Current regulations do not state that 
an IP address is required during reporting and as a result, it is not 
provided.
    We do not recommend that these logs be provided to NCMEC. We do 
recommend that they be retained and available to appropriate law 
enforcement agencies for investigative purposes. It is a vital, yet 
currently missing link in the chain from detection of child pornography 
to conviction of the distributor. Once our CyberTipline analysts give 
law enforcement all the information they need about specific images 
traded on the Internet, there can be no prosecution until the date and 
time of that online activity is connected to an actual person. There is 
currently no requirement for ESPs to retain connectivity logs for their 
customers on an ongoing basis. Some have policies on retention but 
these vary, are not implemented consistently, and are for too short a 
time to have meaningful prosecutorial value.

    Question 6. Some have suggested that the National Center for 
Missing & Exploited Children should have the power to require that a 
company reporting an instance of child exploitation through the 
CyberTipline retain--or preserve--evidence of the exploitation. Is this 
authority that NCMEC should have? Why or why not?
    Answer. Yes. NCMEC should have the authority to direct an ESP to 
retain and preserve such evidence. However, the material should not be 
turned over to NCMEC. That action requires an administrative subpoena, 
and must be the sole prerogative of law enforcement. Nonetheless, we 
should have the authority to direct an ESP to preserve the evidence.
    NCMEC should have this authority on any CyberTipline report that is 
sent to law enforcement by our analysts. A prerequisite for such a 
referral to law enforcement is that there must be a determination that 
there is illegal activity and as a result, data should be preserved. 
The large caseloads of some law enforcement agencies may delay the 
administrative paperwork needed to secure the data from an ESP. The 
CyberTipline could be the first ``trigger'' on such cases to ensure 
that the necessary data is preserved and available for investigation. 
USISPA on behalf of the major ESPs has indicated support for NCMEC 
having such ``preservation'' authority.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John McCain to 
                         Sharon W. Cooper, M.D.
    Question 1. The victims of child pornography that Sheriff Brown 
describes in his testimony shut their eyes or show fear on their faces. 
Clearly, they are experiencing a deep trauma that most of us cannot 
begin to imagine. Could you share with the Committee--based on your 
years of experience treating victims of child sexual exploitations--
what the physical. psychological and other effects of child pornography 
are on its victims?
    Answer. The victim impact of child pornography is inclusive of what 
we know to be the victim impact of child sexual abuse. Both from my 
knowledge of the literature and my experience, there are a multitude of 
emotional and behavioral problems that are relatively common 
occurrences in child sexual abuse, to include depression, low self 
esteem, higher incidence of suicidal behaviors, eating disorders, 
anxiety, post traumatic stress disorder, substance abuse, compulsive 
disorders, self-injurious behaviors, run away behaviors and most 
importantly, child victims who have an increased incidence of self 
blame and a decreased ability to establish a sense of trust. Diminished 
academic achievement is another common outcome of child sexual abuse. 
\1\
---------------------------------------------------------------------------
    \1\ Berliner L, Elliott D. Sexual Abuse of Children IN: The APSAC 
Handbook on Child Maltreatment 2nd Edition by Myers, JEB, Berliner L, 
Briere J, Hendrix CT, Jenny C, Reid TA. Thousand Oaks CA SAGE 
Publications. 2002. 55-78.
---------------------------------------------------------------------------
    When child pornography is an additive factor in the victimization 
of children, even more problems may be seen. Fear of recognition in the 
photos or on the Internet seems to be the most important deterrent to 
victim disclosure because of humiliation. If multiple offenders are 
involved, there is an increased the risk for genital and anal trauma 
and sexually transmitted diseases. Even if one offender is the producer 
of these images, physical injury may occur because of the frequency of 
the sexual assaults. In sadistic images, children are often bound, 
gagged, and blind-folded which has the risk of suffocation and 
aspiration as children cry and sometimes vomit when their distress 
increases. Children are also physically placed at risk of death because 
of drugs used on occasion to assure cooperation. Such was the case of 
Thea Pumbroek, a 6-year-old child who died from an overdose of cocaine 
in an Amsterdam hotel where she was being pornographically 
photographed. It is important to note that some child abductions are 
associated with sexual abuse and pornography production. In these 
cases, extortion becomes part of the modus operandi and leads to 
further coerced compliant victimization.
    Of concern is the fact that child therapists today are in the first 
stages of training and understanding regarding victimization of 
Internet pornography. One important aspect of treatment is to address 
all of the components of abuse that a child has suffered, to reassure 
them that they were not responsible and that the offender was 
misdirected in their motives to cause the child harm. One case that I 
reviewed was of three 8-year-old victims who had been in therapy for 2 
years, and not once had the subject of pornography even been raised by 
the therapists. Although these therapists knew that child pornography 
production was part of their victimization, the children never 
discussed this most important aspect of their exploitation. It was 
clear that the therapists did not know how to embark upon this issue 
either. A recent meeting of experts in Sweden revealed that such 
victims are loath to disclose their abuse. The reasons include:

        a. That the children feel that they are seen to have let the 
        abuse happen without stopping it;

        b. That they may have been smiling as they were directed to do, 
        and others would think that they were enjoying the abuse;

        c. That the index children may have been encouraged to recruit 
        other children for sexual abuse and therefore were 
        ``responsible bystanders''(e.g. from their schools during 
        sleepovers as was the case in a landmark investigation 
        involving more than 40 early elementary school aged victims)

        d. That the children and youths were encouraged to be proactive 
        in their own exploitation (i.e. masturbation) or that of other 
        children (i.e. mutual sexual offending);

        e. That the children and youths were shown their own abuse 
        images with threats of exposure to their non-offending 
        parent(s) or other significant people in their lives to prove 
        that they cooperated and did not stop the abuse. \2\
---------------------------------------------------------------------------
    \2\ Palmer T: Behind the screen: children who are the subjects of 
abusive images. In: Viewing Child Pornography on the Internet 
Understanding the Offence, Managing the Offender, helping the victims 
Dorset England. Russell House Publishing 2005: 61-65

    Of additional note is the compelling research regarding later 
criminal outcomes of child victims of sexual abuse, citing the fact 
that victims of sexual abuse are 28 times more likely in their lives to 
be arrested for prostitution, as compared to children who have not been 
sexually abused. \3\ There is insufficient research at this time to 
confirm the suspicion that child sexual abuse associated with 
pornographic exploitation may have an even higher outcome of 
exhibitionism in association with prostitution (exotic dancing, 
employment in sexually oriented businesses, etc.) However, the nexus of 
exploitation through prostitution and runaway or throwaway life 
experiences is well known. It is also known that a common means of 
coercing a runaway youth into prostitution is to sexually assault him 
or her and pornographically photograph them with subsequent extortion 
into commercial exploitation in prostitution.
---------------------------------------------------------------------------
    \3\ Widom CS Victims of childhood sexual abuse--later criminal 
consequences (NCJ151525). Washington DC; U.S. Department of Justice, 
National Institute of Justice.1995.

    Question 2. Why do individuals collect these images of child sexual 
exploitation?
    Answer. Evaluation of incarcerated offenders who have collected 
Internet child pornography reveals seven common reasons for this 
illegal behavior. There is intense study being conducted of Internet 
offenders because of concerns regarding web addiction. There is an 
aspect of the Internet called the concept of the ``triple-A engine'' of 
accessibility, affordability and assumed anonymity which allows 
individuals to explore sexual desires without the risk of embarrassment 
and with an eventual elevated sense of security. A brief summary of the 
seven motivations are:

        a. As a means of sexual gratification through visual 
        stimulation for masturbation.

        b. As a plan for action (to sexually abuse other children who 
        are available to the offender).

        c. Images as a collectible and medium for exchange and trading.

        d. Collecting as a way of facilitating social relationships 
        with like-minded individuals.

        e. Collecting as a way of avoiding ``real life'' relationships 
        and social problems; This is sometimes described as a form of 
        displacement activity.

        f. Collectors have reported that they collect images to avoid 
        contact offenses with children, therefore this is for them ``a 
        form of therapy''; This clearly underlines their 
        misunderstanding that collecting images increases the demand 
        for more images and escalates the cycle of child sexual abuse 
        for exploitation purposes.

        g. As a means of learning to navigate the Internet with child 
        pornography as the final goal (e.g. learning encryption, 
        entering newsgroups, mastering peer-to-peer networks, etc.). 
        \4\
---------------------------------------------------------------------------
    \4\ Quayle e, Erooga M, Wright L, Taylor M, Harbinson D. Abuse 
Images and the Internet. In: Only Pictures? Therapeutic Work with 
Internet Sex Offenders Dorset England. Russell House Publishing 2006 1-
6.

    Question 3. What motivates them? For example, are images of child 
sexual exploitation used to sexually exploit other children? Are they 
just used for their own gratification?
    Answer. The realization of offender motivations has changed how I 
evaluate child sexual abuse cases which come to our regional clinic. 
Now, when a young child describes being victimized in manners that I 
have seen in child pornography images, I later discuss with law 
enforcement officers the possibility that the offender has been 
collecting child pornography. In several cases, this has been found to 
be true. I also now routinely ask about computer access to juveniles 
who are committing sexual offenses against younger children. Many of my 
victim patients report that the teen was looking at adult pornography 
on the Internet, immediately before sexually assaulting them. The role 
of sexual excitation and disinhibition by exposure to both adult and 
child pornography cannot be underestimated. For teens, it appears that 
accessing adult pornography on the Internet plays a role in causing 
them to become opportunistic offenders.

    Question 4. Is there any kind of profile of people who try to 
obtain child pornography online?
    Answer. I am unaware of specific profiles of child pornography 
collectors except to say that research suggests that the Internet can 
have an effect on individuals who have problematic sexual behaviors in 
general. It is now thought that the Internet may:

        a. Alter mood.
        b. Lessen social risks and remove inhibitions.
        c. Enable multiple self representation.
        d. Show evidence of group dynamics.
        e. Validate, justify and offer an exchange medium.
        f. Challenge old concepts of regulation.
        g. Disrupt and challenge conventional hierarchies.
        h. Empower traditionally marginalized people and groups. \5\
---------------------------------------------------------------------------
    \5\ Quayle e, Erooga M, Wright L, Taylor M, Harbinson D. Abuse 
Images and the Internet. In: Only Pictures? Therapeutic Work with 
Internet Sex Offenders Dorset England. Russell House Publishing 2006 8-
11.

    Question 5. What is the connection between child pornography and 
other forms of child exploitation?
    Answer. There is a connection between child pornography and other 
forms of child sexual exploitation. The best way to conceptualize this 
is through examples. There are 5 types of child sexual exploitation--
child pornography, prostitution of children and youths, child sex 
tourism, cyber-enticement and human trafficking. Child pornography 
often plays a role in each of these forms of exploitation.

        a. Prostitution occurs in different venues, but when teens are 
        recruited as runaways from hubs of transportation or the 
        streets, ``breaking them in'' often entails multiples sexual 
        assaults, physical battering, and pornography as extortion, 
        education, and entry. With the advent of the G3 technology 
        found in cell phone cameras, Japan experienced in 2003 a 95 
        percent rise in child prostitution. \6\
---------------------------------------------------------------------------
    \6\ http://www.ecpat.net/eng/index.asp Accessed 8 October 2006.

        b. In the several child sex tourist cases that I have been 
        involved in, child pornography is the common thread of evidence 
        that an offender had traveled to a foreign country to have sex 
        with children. When these offenders are U.S. citizens, they 
        typically return with their ``keepsake'' of photos, videos, 
        DVDs or evidence that they have mailed these forms of 
        contraband ahead, so that they will not be discovered upon re-
        entry into the United States. Australia was the first country 
        to note the connection between sex tourists and our sex 
        offender registry. Many Americans would rather leave our 
        country and have sex with foreign children than be caught and 
        convicted of a sexual crime against a child here. Most of the 
        sex tourist cases that I'm familiar with involved children from 
---------------------------------------------------------------------------
        as young as 4-5 years of age, through early adolescence.

        c. Enticement cases may frequently involve child pornography. 
        Offenders encourage victims to send erotic and eventually 
        pornographic images of themselves either through digital photos 
        (produced by cameras that the offender supplied to the victim) 
        or web cams as live streaming images. Many times, the offender 
        will send self-made nude photos in order to desensitize the 
        exchange process and normalize the requests of return nude 
        images, followed by sexually explicit self-made images, asking 
        for the same from the victim. This aspect of cyber-enticement 
        which entails child pornography has been reported by rescued 
        youths. Investigators frequently report having found child 
        pornography memorializing the sexual assault encounters 
        produced as part of the mechanism of extortion of the victim 
        into silence and as a future source of fantasy and medium of 
        trade.

        d. Human trafficking both from an international and domestic 
        perspective may also entail pornography production. The reasons 
        are the same--extortion into compliance through humiliation and 
        shame as well as marketing. Teens trafficked from the east 
        coast to the Pacific Northwest to work as underage minors in 
        remote bars and brothels or to be prostituted on the streets 
        describe the role of pornography as a means of control and a 
        deterrent to returning home to families, teachers, and friends 
        who would no longer want them after seeing them participating 
        in sexually explicit acts.

    Question 6. Is there a link between being in possession of child 
pornography and actually sexually assaulting a child?
    Answer. The question of possession of child pornography and contact 
offenses has been discussed by several law enforcement agencies. 
Contact offenses may have occurred before child pornography was ever 
accessed on the Internet, or afterwards. There are 3 frequently cited 
studies:

        a. The U.S. Postal Inspection Service estimates that 1 out of 3 
        of their investigations of child pornography possession 
        revealed that there was also evidence of contact offenses 
        against children;

        b. The Toronto Child Sexual Exploitation Police confirmed a 46 
        percent incidence of contact offenders in their investigations 
        of child pornography;

        c. The Federal Bureau of Prisons who conducted sex offender 
        treatment in the largest group of incarcerated child 
        pornographers in the U.S. at Butner Federal Prison in Butner, 
        North Carolina, found that disclosure of contact offenses were 
        made in 76 percent of those inmates in therapy, who were 
        arrested and convicted of possession of child pornography.

    Question 7. Does exposure to child pornography lead individuals to 
sexually assault children?
    Answer. It is believed that exposure to child pornography does lead 
some individuals to sexually assault children, because the images 
normalize, rationalize and justify such behavior. Of particular note is 
the indication that the more number of images that are available on the 
Internet, the greater the belief by those who collect such images, that 
sex with children is normal, acceptable and most importantly, a 
mainstream behavior.

    Question 8. You've stated in your testimony that the normalization 
of sexual harm continues to be heavily promoted. How is sexual harm 
being normalized? What examples can you give? How is this impacting the 
sexual exploitation of children?
    Answer. The term--``normalization of sexual harm'' has now become 
accepted among prevention organizations in the U.S. to describe 
unhealthy sexual messages which are increasing in media, advertising, 
fashion, entertainment, music, and literature. The unhealthy sexual 
messages promote that relationships should be based upon power not 
respect, that women and girls are commodities, that it is acceptable to 
sexualize children and that the vernacular of prostitution and pimping 
should be glamorized and glorified, particularly in adolescent culture, 
in music and in music videos. The validity of these observations was 
discussed at a Prostitution Roundtable held in March 2006 at the 
National Center for Missing & Exploited Children during which time 
Federal and state investigators who specialized in child and youth 
prostitution, youth prostitution rescue and recovery program directors, 
and social scientists agreed that the ``Pimps and Hos'' culture has 
done much more harm than good to American youths. Examples include (but 
are not limited to):

        a. Thongs marketed by Abercrombie & Fitch for 6-10 year olds 
        with the logos positioned over a child's vagina of ``eye 
        candy'' (a term reserved for the centerfold of pornography 
        magazines).

        b. Padded underwire bras for 6-year-old girls clearly designed 
        to give the impression of breast development in young children 
        by LaSensa Girl(Canadian clothiers).

        c. New infant garments marketed with the logo ``Pimpfant.''

        d. MTVs television program about old cars which when rebuilt 
        are beautiful and desirable, called ``Pimp My Ride.''

        e. CWT's similar television show about old trucks called 
        ``Trick My Truck.''

        f. Bell Canada which recently ended a cell telephone ringtone 
        option called ``Pimptones'' which included a loud slap followed 
        by a woman's scream, as one of several pimp-prostitution 
        related options.

        g. VH1s reality television show rated as the most popular 
        reality show called Flavor of Love, which is a sitcom model of 
        a pimp who invites women every week to fight each other to 
        become his prostitute.

        h. MTV2s most recent highly publicized cartoon (shown at 12:30 
        on a Saturday afternoon) of a cartoon character named for Snoop 
        Dogg (a well known rapper and self professed pimp) walking 
        through a park with 2 women with dog collars and leashes; The 
        most offensive part of the cartoon was a point when one of the 
        women defecates on the sidewalk with commentary by the Snoop 
        Dogg character.

        i. T-shirts marketed with logos on the back stating ``I support 
        single mothers'' but on the front a well recognized silhouette 
        of a female pole dancer and the caption ``One dollar at a 
        Time.''

        j. Victoria Secret's new Brothel Campaign which was launched in 
        October of 2005.

        k. The BET music awards of 2005 which were televised and 
        reported to have the highest cable viewer rating, highlighting 
        the song Cater 2 You by Beyonce and Destiny's Child where the 
        entertainers performed lap dancing on stage (usually a very 
        sexually explicit strip club behavior).

        l. The music video industry which promotes selection after 
        selection of music with sexually explicit and degrading lyrics 
        noted in a recent national survey in the journal Pediatrics, 
        August 2006, to be associated with teens who have earlier onset 
        of sexual intercourse and earlier noncoital sexual activities 
        e.g. oral sex.

        m. Popular videogames such as Grand Theft Auto Vice City which 
        has as its special skills rewards for killing a policeman and 
        having sex with a prostitute and then beating her up and taking 
        her money back.

        n. Teen books reviewed by the New York Times this year as 
        ``scary'' because of the sexually exploitive themes presented 
        in series books such as The ``A'' List (Dean), The Gossip Girls 
        (von Ziegesar) and Clique (Harrison).

        o. The 78th Academy Award achievement in music given in 2005 to 
        the song, ``It's Hard Out Here for a Pimp.''

        p. Brand on Sale's online Pimps and Hos Halloween costumes for 
        children which have been sold-out for 2 years running; This is 
        the 3rd year of marketing.

        q. Music adolescent icons websites and photo spreads such as 
        Britany Spears on the cover of Rolling Stones Magazine in 
        topless profile view.

    Presentations on this subject with many more examples have been 
made now at numerous national meetings of health care providers, child 
abuse and sexual assault prevention specialists, adolescent pregnancy 
prevention programs, child welfare professionals, prosecutors and 
investigators of child sexual exploitation, the Congressional Black 
Caucus, military Family Advocacy Program managers, forensic nurse 
examiners, psychologists who specialize in the sexual abuse of children 
and community activists and child advocates in the United States, 
Canada and Europe. There has been an overwhelmingly positive response 
to the realization that the landscape of children and youths today is 
riddled with a sexual toxicity that defies no other known era in the 
history of America. It is this realization that mandates civic action 
from the family and individual to society at large.

                                  <all>

</pre></body></html>
